APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-15607
————
CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS; ARVIND RAGHAVAN,
individually and as parent and next friend of M.R.
and N.R.; VISHNUKUMAR THUMATI, individually and
as parent and next friend of P.T. and N.T.; SHAILESH
SHILWANT, individually and as parent and next friend
of P.S. and P.S.S.,
Plaintiffs-Appellants,
v.
TOM TORLAKSON, in his official capacity as State
Superintendent of Public Instruction and Director of
Education for the California Department of
Education; TOM ADAMS, in his official capacity as
Deputy Superintendent of the Instruction and
Learning Support Branch of the California
Department of Education; STEPHANIE GREGSON, in
her official capacity as Director of the Curriculum
Frameworks and Instructional Resources Division of
the California Department of Education; MICHAEL
KIRST; ILENE STRAUS; SUE BURR; BRUCE HOLADAY;
FELIZA I. ORTIZ-LICON; PATRICIA ANN RUCKER;
NICOLASA SANDOVAL; TING L. SUN; TRISH BOYD
WILLIAMS, each in their official capacity as a member
of the California State Board of Education; MYONG
LEIGH, in his official capacity as Interim
Superintendent of the San Francisco Unified School
District; SHAMANN WALTON; HYDRA MENDOZAMCDONNELL; STEVON COOK; MATT HANEY; EMILY M.
MURASE; RACHEL NORTON; MARK SANCHEZ, each in

2a
their official capacity as a member of the San
Francisco Unified School District; RICK SCHMITT, in
his official capacity as Superintendent of the San
Ramon Valley Unified School District; MARK JEWETT;
KEN MINTZ; RACHEL HURD; DENISE JENNISON; GREG
MARVEL, each in their official capacity as a member of
the San Ramon Valley Unified School District Board
of Education; WENDY GUDALEWICZ, in her official
capacity as Superintendent of the Cupertino Union
School District; ANJALI KAUSAR; LIANG CHAO;
KRISTEN LYN; SOMA MCCANDLESS; PHYLLIS VOGEL,
each in their official capacity as a member of the
Cupertino Union School District Board of Education;
CHERYL JORDAN, in her official capacity as
Superintendent of the Milpitas Unified School
District; DANIEL BOBAY; DANNY LAU; CHRIS
NORWOOD; HON LIEN; ROBERT JUNG, each in their
official capacity as a member of the Milpitas Unified
School District Board of Education,
Defendants-Appellees,
REGENTS OF THE UNIVERSITY OF CALIFORNIA,
Intervenor.
————
Appeal from the United States District Court
for the Northern District of California
D.C. No. 3:17-cv-00635-CRB,
Charles R. Breyer, District Judge, Presiding
————
Argued and Submitted July 14, 2020
San Francisco, California
Filed September 3, 2020
————
Before: Sidney R. Thomas, Chief Judge, and Mary M.
Schroeder and Daniel A. Bress, Circuit Judges.
————

3a
OPINION
————
SCHROEDER, Circuit Judge:
Parents of Hindu children in the California public
schools filed suit against the State Department of
Education and State Board of Education claiming
discrimination against the Hindu religion in the content of the History-Social Science Standards and
Framework for sixth and seventh graders. Appellants
are individual parents and the organization California Parents for the Equalization of Educational Materials (CAPEEM). They alleged violations of several
constitutional provisions including Due Process,
Equal Protection, and the Establishment and Free
Exercise clauses of the First Amendment.
Their complaint focuses on a handful of provisions
in the 1998 Standards and the 2016 Framework and
alleges these curriculum materials carry a hostile
and denigrating message about the origins of Hinduism when compared with similar provisions relating
to other religions of the world. Of particular concern
is the passage in the Standards concerning the role of
invaders, and their effect on the origins of Hinduism.
Plaintiffs allege that this theory has been discredited
and disparages their religion.
The district court dismissed all but one of the
claims and then granted summary judgment in favor
of Appellees on the remaining Establishment clause
claim, holding that the Standards and Framework do
not communicate disapproval of Hinduism. The court
also excluded an expert report offered by Appellants
to explain how, from the perspective of a person
knowledgeable in the field of religious history, the
Standards and Framework express a negative view of
Hinduism. The court ruled that the question was how

4a
curriculum materials would be understood by a reasonable observer, not how an expert would interpret
them. We affirm.
I.

BACKGROUND

A. California Content Standards, The Curriculum
Framework, And Their Relevant Provisions
The California State Board of Education (State
Board) develops model curriculum outlines to provide
standardized guidance to individual school districts.
These outlines, known as Content Standards and
Curriculum Frameworks, are used by individual
school districts to design more tailored course curricula. See Cal. Educ. Code § 60000(b). The State Board
first issues Content Standards, which are broad
guidelines for each major subject area, such as history and math. See Cal. Educ. Code §§ 60602.5(a)(1),
60605, 60618. The State Board then issues Curriculum Frameworks which fill in more detail lacking in
each of the Standards. See Cal. Educ. Code §§ 60000,
60005, 60200(c). The local school districts in California decide the precise contours of what is taught in
their public school classrooms, and can supplement
the materials or omit content contained in them. See
Cal. Educ. Code § 60000(b).
The State Board, in 1998, adopted the Content
Standards for history and social science that Appellants challenge in this lawsuit. In just a few pages,
the Content Standards outline the history of the
world’s first major civilizations and religions, and invite sixth grade students to engage in critical analysis of the “geographic, political, economic, religious,
and social structures” of each civilization, including
Ancient India.
The State Board then adopted the Curriculum
Framework for history and social science in 2016 af-

5a
ter a lengthy comment process that solicited feedback
from the public. Like the Content Standards, the
Curriculum Framework calls for students to analyze
ancient civilizations from a social science perspective,
with materials to include, among other subject matter, “the birth and spread of religious and philosophical systems.” The Curriculum Framework provides
the additional detail and context lacking in the Content Standards.
B. Plaintiffs And Challenged Provisions
Appellants here are a non-profit organization,
CAPEEM, and three parents on behalf of themselves
and their children enrolled in California’s public
school system. CAPEEM is a membership organization that exists to promote fair and accurate depictions of Hinduism in the public school system.
This is not the first time that CAPEEM has challenged the constitutionality of information about
Hinduism provided to public school students. In 2006,
CAPEEM filed a lawsuit claiming that California’s
recently adopted text books had content that was anti-Hindu, and that the use of such text books violated
the Establishment clause. The district court in that
case determined that the text books did not contain
any information that disparaged Hinduism, and
granted summary judgment to the state. Cal. Parents
for Equalization of Educ. Materials v. Noonan, 600 F.
Supp. 2d 1088, 1119 (E.D. Cal. 2009). CAPEEM did
not appeal. In this case, Appellants, instead of challenging text books, challenge certain aspects of the
descriptions of Hinduism in the 1998 Standards and
2016 Framework.
Appellants first assert that the Standards and
Framework do not describe the divine origins of Hinduism or discuss the sacred texts of their religion,

6a
while, at the same time, describing the divine origins
of the other major religions. As an example, they
point to language in the Standards that describes
Hinduism as consisting of “beliefs and practices,” and
they point as well to a characterization of one of Hinduism’s sacred texts, the Bhagavad Gita, as an important piece of literature in Ancient India. Appellants additionally highlight a phrase in the Framework that describes Hinduism as a “culture that
emerged as a belief system.” They argue that these
are secular descriptions of Hinduism that are disparaging when read alongside the descriptions of other
religions covered by the education materials.
Appellants object as well to the Standards’ instruction directing the students to “[d]iscuss the significance of the Aryan Invasions.” Appellants assert that
this instruction references a now-debunked theory
that invaders from the north entered ancient India,
leading to the creation of Hinduism.
Also causing Appellants concern is the Framework’s description of the caste system in Ancient India; in particular, Appellants object to the description
of caste as a religious belief. Appellants point to a
passage in the Framework, which says that “Teachers should make clear to students that [caste] was a
social and cultural structure as well as a religious belief.” Appellants argue that the association with the
caste system singles out Hinduism for negative
treatment when compared with the other religions
discussed in the Standards and Framework.
These three objections form the basis of most of Appellants’ constitutional claims.
C. The Complaint
Appellants filed their complaint in 2017. It alleges
that the content of the Standards and Framework,

7a
and the process leading up to the Framework’s adoption, violate several provisions of the constitution.
The complaint includes two Equal Protection
claims. The first is that the content of the Standards
and Framework describes Hinduism in derogatory
terms and from the perspective of a skeptic, whereas
the same material describes other religions with respect. Appellants also allege that the Department of
Education violated their Equal Protection rights
when it refused to accept all of CAPEEM’s proposed
edits to the Framework, while at the same time, accepting edits from other religious groups during the
notice and comment process.
With respect to the Free Exercise clause, the complaint alleges that the content of the challenged provisions of the Standards and Framework denigrates
Hinduism and is therefore not neutral with respect to
religion and violative of their rights to free exercise.
As with their Equal Protection claims, Appellants also assert that occurrences in the process leading up to
the Framework’s adoption violated their Free Exercise rights.
Bias against Hinduism in the content of the Standards and Framework is the basis for the alleged substantive due process violation as well. The complaint
alleges that the Standards and Framework “indoctrinate children with beliefs biased deeply against Hinduism and in favor of the Abrahamic religions,” and
thereby interfere with the liberty interests of the parent Appellants to control the upbringing and education of their children.
Finally, the complaint contains two Establishment
clause claims. It alleges that the content of the
Standards and Framework unconstitutionally endorse Judaism, Christianity, and Islam, because the

8a
content calls for the teaching of religious events, significant to those religions, as historical fact. The
complaint then alleges in the second Establishment
clause claim that the content of the challenged materials has the primary effect of disparaging or denigrating Hinduism.
All of Appellants’ constitutional claims thus relate
to the particular passages in the Standards and
Framework that they find objectionable. None challenge the Department of Education’s overall policy of
providing students with an introduction to the major
world religions and none relate to material students
actually see in the classroom.
D. The District Court’s Decisions
The district court in a published opinion in 2017
dismissed all of Appellants’ claims, with the exception of the Establishment clause claim relating to
disparagement of Hinduism. Cal. Parents for Equalization of Educ. Materials v. Torlakson, 267 F. Supp.
3d 1218 (N.D. Cal. 2017). The district court later, also
in a published opinion, granted summary judgment to
the State Board on that claim. See Cal. Parents for
Equalization of Educational Materials v. Torlakson,
370 F. Supp. 3d 1057, 1067–1083 (N.D. Cal. 2019).
In its first opinion dismissing most of CAPEEM’s
claims, including the Equal Protection claims, the
district court extensively examined our circuit’s leading case on Equal Protection challenges to educational materials, Monteiro v. Tempe Union School District, 158 F.3d 1022 (9th Cir. 1998). In that case,
Kathy Monteiro brought suit on behalf of her daughter, and argued that the curriculum’s inclusion of literary works containing racially derogatory terms,
such as The Adventures of Huckleberry Finn and A
Rose For Emily, violated their Equal Protection

9a
rights. Id. at 1024–25. Our opinion in Monteiro held
that objections to curriculum assignments cannot
form the basis of a viable Equal Protection claim, because curriculum decisions must remain the province
of school authorities. Absent an allegation of an underlying racist policy, plaintiffs cannot challenge “the
assignment of material deemed to have educational
value by school authorities.” Id. 1031–32.
We explained that permitting such Equal Protection challenges would infringe on other students’
First Amendment interests in reading the contested
materials. Id. at 1028. We saw the role of the school
district in selecting curricula to be equally important.
Permitting such challenges would “significantly interfere with the [school district]’s discretion to determine the composition of its curriculum.” Id. at 1029.
We observed that the desire to avoid such lawsuits
could “lead many school districts to ‘buy their peace’
by avoiding the books or other materials that express
messages . . . that could be argued to cause harm to a
group of students.” Id. In other words, permitting
Equal Protection claims seeking removal of works
from curriculum would have a significant chilling effect on the types of materials assigned by our public
schools. Id. This would, in turn, damage the quality
of public education offered to students. “[T]he function of . . . education itself is to stimulate thought, to
explore ideas, to engender intellectual exchanges.
Bad ideas should be countered with good ones, not
banned by the courts.” Id. at 1032. We therefore held
that the Equal Protection clause is not a vehicle for
challenging curriculum content choices.
The district court in this case concluded that the
reasoning of Monteiro with respect to curricula applied equally to the materials challenged here that
provide the general outlines for curriculum content.

10a
Following Monteiro, the district court ruled that Appellants’ objections to the content of the Standards
and Framework did not state a plausible Equal Protection claim. Cal. Parents for Equalization of Educ.
Materials, 267 F. Supp. 3d at 1232; see also Noonan,
600 F. Supp. 2d at 1111 (holding that CAPEEM’s
challenges to public school text books were barred by
Monteiro). The court also concluded that Appellants’
indirect challenge to the content, through allegations
of differential treatment in the Framework adoption
process, was necessarily barred. Cal. Parents for
Equalization of Educ. Materials, 267 F. Supp. 3d at
1234–35. Those allegations faulted the State Board’s
rejection of Appellants’ proposed amendments to the
Framework during the comment process, and acceptance of suggested edits of another group Appellants deemed hostile to Hinduism. The district court
reasoned that it would render our decision in Monteiro meaningless if plaintiffs could make out an
Equal Protection claim when a state official refuses to
adopt plaintiffs’ content preferences during the comment process. Id. Constitutional challenges to the
content of curricula on religious grounds must be adjudicated under the religion clauses of the First
Amendment, not Equal Protection. Id. at 1235.
The district court also ruled that Appellants had
failed to allege a plausible Free Exercise claim, because our case law requires Appellants to allege a
substantial burden on their religious practice or exercise. Id. at 1226–27 (citing and discussing Am. Fam.
Ass’n Inc. v. City & Cnty. of S.F., 277 F.3d 1114,
1123–24 (9th Cir. 2002)). In American Family, we rejected the argument that the Supreme Court had
eliminated the need for plaintiffs to allege a substantial burden on their religious exercise where, as here,
no law or other regulatory government conduct is in-

11a
volved. Am. Fam. Ass’n Inc., 277 F.3d at 1123–24.
Dismissal of the complaint in American Family was
appropriate because “the complaint did not . . . allege
any specific religious conduct that was affected by the
Defendants’ actions.” Id. Finding no such allegation
in this case, the district court dismissed Appellants’
Free Exercise clause claims. Cal. Parents for Equalization of Educ. Materials, 267 F. Supp. 3d at 1227.
The district court additionally held that under our
decision in Fields v. Palmdale School District, 427
F.3d 1197 (9th Cir. 2005), it was required to dismiss
Plaintiffs’ substantive due process claims. Cal. Parents for Equalization of Educ. Materials, 267 F. Supp.
3d at 1224. In Fields, we explained that, under cases
going back to Meyer v. Nebraska, 262 U.S. 390, 43
S.Ct. 625, 67 L.Ed. 1042 (1923), and Pierce v. Society
of Sisters, 268 U.S. 510, 45 S.Ct. 571, 69 L.Ed. 1070
(1925), once parents select a school for their child,
parents cannot “compel public schools to follow their
own idiosyncratic views as to what information the
schools may dispense.” Fields, 427 F.3d at 1206. Parents have only a limited substantive due process
right “to be free from state interference with their
choice of the educational forum itself.” Fields, 427
F.3d at 1197, 1207. The district court concluded that
the parents did not allege they were unable to send
their children to the school of the parents’ choosing,
and therefore did not state a plausible substantive
due process claim. Cal. Parents for Equalization of
Educ. Materials, 267 F. Supp. 3d at 1224–25.
The district court dismissed one of Appellants’ Establishment clause claims, concluding that an objective reading of the curriculum materials revealed no
unconstitutional endorsement of Christianity, Judaism, or Islam. Id. at 1228. The materials permissibly
called for students to learn about the major events

12a
and figures of various world religions. The district
court did not, at the same time, dismiss Appellants’
other Establishment clause claim, that the curriculum materials had the primary effect of disparaging
Hinduism, but later ruled against Appellants on that
claim at summary judgment. See Cal. Parents for
Equalization of Educ. Materials, 370 F. Supp. 3d at
1067–1083.
In that later opinion, the district court concluded
that neither the allegations of the complaint, nor any
additional materials adduced on summary judgment,
reflected content that disparaged Hinduism. First,
the district court explained that, contrary to Appellants’ contentions, the Standards and Framework do
in fact describe the divine origins of Hinduism and
the divine significance of the Bhagavad Gita and other sacred texts. Id. at 1070. Although Appellants had
asserted that the Standards and Framework promote
an outdated theory that Hinduism was the result of
an Aryan invasion, the district court explained that
the Standards and Framework, read together, refer
to a migration of people speaking Indic languages
southward into the region. Id. at 1074–75. The materials also acknowledge a competing theory that the
language spread northward. Neither theory suggests
a connection between invasions and the development
of Hinduism. Id. at 1075. The theories refer to historical events. As the district court summed it up,
“[w]hether or not there was an influx of Aryans into
South Asia in 1500 BCE is appropriately the subject
of a history and social science curriculum, and not actually a positive or negative statement about Hinduism.” Id.
The district court also dealt specifically with Appellants’ argument that the material contains a description of the caste system as a Hindu religious belief

13a
and that the description has the primary effect of
disparaging Hinduism. Id. at 1071–73. The court
pointed out that the Framework expressly acknowledges that all early civilizations had social class systems. The Hindu religion was thus not singled out for
criticism of its caste or class system. The district
court, after examining the Standards and Framework, concluded that an objective, reasonable observer would not conclude that the materials have the
primary effect of disparaging Hinduism. Id. at 1079.
At summary judgment, Appellants offered an expert report to explain the significance of certain
terms from the perspective of an academic religious
scholar. The district court declined to consider the
expert report. Id. at 1070 n.8. The court explained
that the report was not relevant to the court’s analysis of the critical issue. Id. The question was whether
the materials primarily communicate a message of
disparagement from the perspective of a reasonable
observer, and not from the perspective of an expert.
The court cited Brown v. Woodland Joint School District, where we held that expert testimony was irrelevant to the effect of challenged material on a child.
Id.
II. CONTENTIONS ON APPEAL
A. Equal Protection
The district court held that because Appellants’
Equal Protection claim was based on objections to
course content, it was “squarely foreclosed” by Monteiro’s holding such challenges are barred. Cal. Parents for Equalization of Educ. Materials, 267 F. Supp.
3d at 1232. Appellants argue that Monteiro does not
control because they allege a discriminatory policy
exempted from Monteiro’s holding. There is no such
allegation.

14a
Appellants’ brief recites the allegations of the complaint that the Standards and Framework discriminate against Hinduism by treating it less favorably
than other religions. The allegations contain no reference to State Board policy, nor do the allegations describe any materials used in the classroom from
which such a policy could be inferred. As the district
court emphasized, the Standards and Framework are
never seen by the students. See Cal. Parents for
Equalization of Educ. Materials, 267 F. Supp. 3d at
1222 (“Notably, students do not read either the
Standards or the Framework.”). The district court
correctly characterized Appellants’ claims as an indirect attack on curricula. Plaintiffs are the parents of
students, and the underlying harm Appellants are
complaining of is alleged discrimination in the educational materials the students receive. Yet Monteiro
holds that, at least absent evidence of unlawful intentional discrimination, parents are not entitled to
bring Equal Protection claims challenging curriculum
content. Monteiro, 158 F.3d at 1031–32. Monteiro
thus bars Appellants’ principal Equal Protection
claim. See id.; see also Noonan, 600 F. Supp. 2d at
1111.
Appellants separately challenge the process leading
up to the adoption of the Framework as discriminatory against Hindus. Again, no discriminatory policy is
described or articulated, only examples of what Appellants assert to be discriminatory treatment in the
development of the content of the Framework. Appellants’ claim is that the State Board failed to incorporate their requested edits, and solicited and accepted
some suggestions from a group of historical scholars
that they regard as hostile to Hinduism. We agree
with the State Board that Appellants may not like
the edits made to the Framework, but that a dislike

15a
of challenged content does not constitute a constitutional violation of Equal Protection, absent a plausible allegation of discriminatory policy or intent. See
Thornton v. City of St. Helens, 425 F.3d 1158, 1166–
67 (9th Cir. 2005); Monteiro, 158 F.3d at 1026 (explaining that, to plead a successful Equal Protection
claim, plaintiffs must “plead intentional unlawful
discrimination or allege facts that are at least susceptible of an inference of discriminatory intent.”). We
therefore conclude that the district court properly
dismissed both Equal Protection claims.
B. Free Exercise
The district court also dismissed Appellants’ Free
Exercise clause claim because the court found Appellants failed to allege any burden on their religious exercise or practice. Appellants do not challenge that
conclusion here. Pleading such a burden is required
by our decisions in American Family Association, 277
F.3d at 1124 and Vernon v. City of Los Angeles, 27
F.3d 1385, 1393 (9th Cir. 1994). Appellants’ only argument is that the district court failed adequately to
take into account three recent Supreme Court decisions, and that these decisions have eliminated the
requirement that plaintiffs plead a burden on their
religious exercise.
The three recent Supreme Court cases are Trinity
Lutheran Church v. Comer, ––– U.S. ––––, 137 S.Ct.
2012, 198 L.Ed.2d 551 (2017), Masterpiece Cakeshop
v. Colorado Civil Rights Commission, ––– U.S. ––––,
138 S.Ct. 1719, 201 L.Ed.2d 35 (2018), and Espinoza
v. Montana Department of Revenue, ––– U.S. ––––,
140 S.Ct. 2246, 2252, 207 L.Ed.2d 67 (2020). Trinity
Lutheran and Espinoza both involved state programs
that excluded religious entities. See Trinity Lutheran,
137 S.Ct. at 2017; Espinoza, 140 S.Ct. at 2252. Trinity Lutheran concerned exclusion of religious institu-

16a
tions from a state program providing assistance to
schools. 137 S.Ct. at 2017. Espinoza dealt with a program granting tax credits for contributions to schools,
but exempted contributions to religious schools. 140
S.Ct. at 2252. In both cases, the Supreme Court held
that the exclusion of religious institutions from the
programs violated the First Amendment’s Free Exercise clause. The Court ruled that the exclusion of religious institutions from beneficial programs amounted to a financial penalty, and that the Free Exercise
clause prohibits such “indirect coercion or penalties
on the free exercise of religion.” Trinity Lutheran, 137
S.Ct. at 2022; Espinoza, 140 S.Ct. at 2256.
Although the district court did not have the opportunity to analyze these cases in its opinion dismissing
Appellants’ Free Exercise clause claims, these cases
do not alter the district court’s analysis in this case.
We are not dealing with a state program that provides financial or other similar benefits. The state
has not carved out any exclusion for religious education in the curriculum materials. Appellants allege no
penalty or coerced conduct. As the district court said,
Appellants failed to allege “any specific religious conduct that was affected by the Defendants’ actions.”
Cal. Parents for Equalization of Educ. Materials, 267
F. Supp. 3d at 1226 (citing and quoting Am. Fam.
Ass’n, 277 F.3d at 1124). The complaint has not alleged interference with Appellants’ exercise of their
religion under our Constitution as required for a viable Free Exercise claim under Trinity Lutheran and
Espinoza.
In the third recent case that Appellants cite, Masterpiece Cakeshop, the Supreme Court dealt with
overt expressions of hostility on the part of officials
adjudicating claims under a state’s civil rights law.
138 S.Ct. at 1729–31. One official expressed deep and

17a
open skepticism as to whether the claimants’ religious beliefs were sincerely held. Id. at 1729 (“Freedom of religion . . . has been used to justify all kinds
of discrimination throughout history, whether it be
slavery, whether it be the holocaust . . . it is one of
the most despicable pieces of rhetoric that people can
use to—to use their religion to hurt others.”). The
Court there held that such an expression of “clear
and impermissible hostility toward the sincere religious beliefs that motivated his objection” interfered
with the claimant’s Free Exercise rights during that
adjudicatory process. Id. at 1729. We have no expressions of hostility here.
Appellants allegations suggest at most that portions of the Standards and Framework contain material Appellants find offensive to their religious beliefs.
As the district court said, “[a]t its core, Plaintiffs’
Free Exercise clause argument seems to be that the
public school curriculum conflicts with their religious
beliefs.” Cal. Parents for Equalization of Educ. Materials, 267 F. Supp. 3d at 1226. Offensive content that
does not penalize, interfere with, or otherwise burden
religious exercise does not violate Free Exercise
rights. See Grove v. Mead Sch. Dist. No. 354, 753 F.2d
1528, 1533–34 (9th Cir. 1985); see also id. at 1543
(Canby, J., concurring) (“[G]overnmental actions that
merely offend . . . religious beliefs do not on that account violate free exercise”; an “actual burden on the
profession or exercise of religion is required.”).
C. Substantive Due Process
The Fourteenth Amendment guarantee of due process has a substantive component that includes a
parent’s right to make decisions regarding the “care,
custody and control of their children.” Troxel v. Granville, 530 U.S. 57, 69, 120 S.Ct. 2054, 147 L.Ed.2d 49
(2000). Appellants recognize, however, that with re-

18a
spect to education, parents have the right to choose
the educational forum, but not what takes place inside the school. As we said in Fields, the substantive
due process right “does not extend beyond the threshold of the school door.” 427 F.3d at 1207. Parents
therefore do not have a due process right to interfere
with the curriculum, discipline, hours of instruction,
or the nature of any other curricular or extracurricular activities. We reiterated this principle recently in
McNeil v. Sherwood Sch. Dist. 88J, 918 F.3d 700 (9th
Cir. 2019) (per curiam). We there repeated our statement in Fields that once the choice of school is made,
parental rights are “substantially diminished.” Id. at
711 (citing and quoting Fields, 427 F.3d at 1206).
In this appeal, Appellants argue that by recognizing a “diminished” substantive due process right in
McNeil and Fields, we somehow, and without saying
so, preserved their ability to raise religious objections
to the Standards and Framework. Citing a law review
article, Appellants observe that the Supreme Court
has used the due process clause to “further equality
concerns . . . relating to . . . religious minorities.” Kenji
Yoshino, The New Equal Protection, 124 Harv. L. Rev.
747, 749–50 (2011). They rely on this backdrop to
support their argument for a broad due process right
to challenge materials that they view as religiously
bigoted. McNeil represents a refutation of Appellants’
position. In McNeil, the parents complained about
their child’s expulsion for creating a hit list. 918 F.3d
at 704. There, we said that once parents select a
school, they “accept[ ] [that school’s] curriculum, school
policies, and reasonable disciplinary measures.” Id. at
711. Our law has recognized no exceptions.
D. Establishment Clause
Appellants argue that the district court mishandled
their Establishment clause claims in several respects.

19a
Without directly responding to the district court’s
careful refutation of their characterizations of the
Standards and Framework, Appellants argue that an
objective reading of those materials reveals an impermissible endorsement of Judaism, Christianity,
and Islam and that the court incorrectly granted the
State Board summary judgment on Appellants’ claim
that those materials disparage Hinduism. They also
argue that the district court should not have excluded
their expert report produced at summary judgment.
We address each of these arguments in turn.
Before addressing the merits of Appellants’ Establishment clause claims, however, we first address the
evidentiary argument they raise. At summary judgment, Appellants produced an expert report in support of their claim that the Standards and Framework have the primary effect of disparaging Hinduism. That expert report concluded that the 1998
Standards contained outdated, offensive, and disparaging information about Hinduism. Appellants now
argue that the district court improperly excluded that
report because, without it, the offensiveness of certain terms is not obvious by reading the text of the
Standards and Framework alone.
But that absence of facially apparent disparagement is the reason why the district court excluded the
expert report from its consideration, and also why
Appellants’ claim that the Standards and Framework
primarily communicate a message of disapproval of
Hinduism fails. An expert’s understanding of the
terms is irrelevant. We must evaluate the Standards
and Framework from the perspective of an objective,
reasonable observer, and not that of an academic who
is an expert in the field. See e.g. Lee v. Weisman, 505
U.S. 577, 593, 112 S.Ct. 2649, 120 L.Ed.2d 467
(1992); Newdow v. Rio Linda Union Sch. Dist., 597

20a
F.3d 1007, 1037–38 (9th Cir. 2010); see also Brown,
27 F.3d at 1382 (agreeing with that district court that
the expert opinion was not relevant to primary effect
test). We therefore cannot conclude that the district
court abused its discretion by refusing to consider
Appellants’ expert report in its analysis. See id;
Noonan, 600 F. Supp. 2d at 1118 (rejecting “various
expert opinions” offered by both parties).
Turning now to the merits of Appellants’ Establishment clause claims, we conclude, as did the district court, that the Standards and Framework do not
call for the teaching of biblical events or figures as
historical fact, thereby implicitly endorsing Judaism,
Christianity, and Islam. The materials do not take a
position on the historical accuracy of the stories or
figures, and the Supreme Court has told us that mere
inclusion of passages from the Bible in course materials does not violate the Constitution. See Grove, 753
F.2d at 1539–40 (1985) (Canby, J. concurring) (citing
Abington Sch. Dist. v. Schempp, 374 U.S. 203, 225, 83
S.Ct. 1560, 10 L.Ed.2d 844 (1963)).
We also conclude, as did the district court, that
none of Appellants’ characterizations of the Hinduism
materials as disparaging is supported by an objective
reading of those materials. The Framework acknowledges the divine origins of Hinduism, and describes
how these sacred beliefs were written down in texts
like the Bhagavad Gita. See Cal. Parents for Equalization of Educ. Materials, 370 F. Supp. 3d at 1071.
The Standards and Framework reference an invasion, but do not call for teaching students that an invasion from the north caused the development of
Hinduism in ancient India. From an objective perspective, none of the challenged material, alone or
considered together, has the effect of disparaging
Hinduism.

21a
We do not doubt the sincerity of Appellants’ challenge to the Standards and Framework. The courts
are called upon to view the passages objectively and
from the perspective of the reasonable person. See
Brown, 27 F.3d at 1378–79. As the district court noted, an “objective, reasonable observer would find
much of the challenged material entirely unobjectionable.” Cal. Parents for Equalization of Educ. Materials, 370 F. Supp. 3d at 1079. But even if isolated
passages could be read as implying some hostility toward religion—which they do not—they would not
violate the Establishment clause unless that were the
“principal or primary effect.” C.F. v. Capistrano Unified Sch. Dist., 654 F.3d 975, 985–86 (9th Cir. 2011)
(citing Am. Fam. Ass’n, 277 F.3d at 1121). The
Standards and Framework reflect careful crafting by
the State Board to achieve a balanced portrayal of
different world religions.
III. CONCLUSION
The district court ably sorted through Appellants’
allegations in this case to describe the deficiencies of
their arguments in light of contemporary constitutional principles. We agree with the district court
that the challenged content of the Standards and
Framework, and process leading up to the Framework’s adoption, did not disparage or otherwise express hostility to Hinduism in violation of the Constitution.
AFFIRMED.
BRESS, Circuit Judge, concurring:
The majority opinion correctly holds that there is
no basis in this record to conclude that the defendants discriminated against Hinduism, expressed a
hostility toward it, or burdened the practice of that
religion. The majority opinion also properly rejects

22a
the plaintiffs’ Establishment Clause challenge. The
Establishment Clause certainly does not prevent California from educating students about world religions
and their role in human civilizations. See, e.g., Lynch
v. Donnelly, 465 U.S. 668, 679–80, 104 S.Ct. 1355, 79
L.Ed.2d 604 (1984). Plaintiffs’ efforts to wring an Establishment Clause violation from subtle differences
that they perceive in the curricular treatment of various religions does not withstand scrutiny, and, if accepted, would paralyze educators in their lawful objective of treating religion as a topic relevant to world
history.
I note that some portions of the majority opinion
discussing plaintiffs’ Establishment Clause claim
draw upon Ninth Circuit precedent that is based on
Lemon v. Kurtzman, 403 U.S. 602, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971). The list of situations in which the
Supreme Court has effectively repudiated the Lemon
test, either by “expressly declin[ing] to apply the test
or [ ] simply ignor[ing] it,” has grown quite long.
American Legion v. American Humanist Ass’n, –––
U.S. ––––, 139 S. Ct. 2067, 2080, 204 L.Ed.2d 452
(2019) (plurality op.). But to my understanding, the
circuit precedent on which the majority opinion relies
remains binding on this panel in this case. Regardless, whether under a Lemon-based test or an Establishment Clause analysis more appropriately grounded in the history and traditions of this country, id. at
2089–90; id. at 2092–94 (Kavanaugh, J., concurring);
id. at 2096 (Thomas, J., concurring in the judgment),
there was no establishment of religion here.

23a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 17-cv-00635-CRB
————
CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS, et al.,
Plaintiffs,
v.
TOM TORLAKSON, et al.,
Defendants.
————
Signed 02/28/2019
————
ORDER GRANTING DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT, DENYING PLAINTIFFS’
CROSS-MOTION FOR SUMMARY JUDGMENT
————
CHARLES R. BREYER, United States District Judge
In this case, Plaintiffs, the organization California
Parents for the Equalization of Educational Materials
(“CAPEEM”) and several Hindu parents, allege that
the California public school curriculum discriminates
against Hindus. See generally Compl. (dkt. 1). The
sole remaining claim in the case is whether the History-Social Science Content Standards for California
Public Schools, Kindergarten Through Grade Twelve
(the “Standards”), adopted in 1998, and the HistorySocial Science Framework (the “Framework”), adopted in 2016, violate the Establishment Clause of the
Constitution. See Order re MTD (dkt. 119) at 9–16,
21. In light of the Court’s earlier rulings, in order to

24a
prevail, Plaintiffs need to demonstrate that the complained-of government action has the principal or
primary effect of advancing or inhibiting religion. See
Lemon v. Kurtzman, 403 U.S. 602, 612–13, 91 S.Ct.
2105, 29 L.Ed.2d 745 (1971); Order re MTD at 10–13
(rejecting Plaintiffs’ arguments under other two Lemon prongs). The evidence does not support such a ruling. Accordingly, as explained below, the Court
GRANTS Defendants’1 Motion for Summary Judgment (hereinafter “D. MSJ”) (dkt. 163) and DENIES
Plaintiffs’ Cross-Motion for Summary Judgment
(hereinafter “P. MSJ”) (dkt. 215).2
I.

BACKGROUND

Individual school districts decide precisely what is
taught in California public school classrooms. See
Cal. Educ. Code § 60000(b) (West 2019) (“there is a
need to establish broad minimum standards and general educational guidelines for the selection of instructional materials for the public schools, but . . .
because of economic, geographic, physical, political,
educational, and social diversity, specific choices
about instructional materials need to be made at the
local level”); see also id. § 60210(a) (local educational
agency may use materials aligned with content
standards); id. § 60618(b) (school districts may use
1 Defendants are Tom Torlakson (State Superintendent and
Director of Education), Tom Adams (Deputy Superintendent),
Stephanie Gregson (Director of the Curriculum Frameworks)
and members of the California State Board of Education; Michael Kirst; Ilene Straus; Sue Burr; Bruce Holaday; Feliza I.
Ortiz-Licon; Patricia Ann Rucker; Nicolasa Sandoval; Ting L.
Sun; and Trish Boyd Williams, each sued in their official capacities.
2 Because the Court finds this matter suitable for resolution
without oral argument, it vacated the hearings on this motion.
See Civil Local Rule 7-1(b).

25a
model standard in developing district standards); see
also D. MSJ Ex. 1 (dkt. 165-1) (“Standards”) at 0005
(“The standards serve as the basis for statewide assessments, curriculum frameworks, and instructional
materials, but methods of instructional delivery remain the responsibility of local educators.”). But
state-wide materials provide the general content
standards upon which the individual school districts
rely. Two such state-wide materials are at issue in
this case: the Standards and the Framework.
A. Standards
The California legislature required the State Board
of Education (SBE) to adopt model content standards
in major subject areas, including history and social
science. Cal. Educ. Code §§ 60602.5(a)(1), 60605,
60618. These Standards outline the topics and content that California public school students need to
acquire at each grade level. See Standards at 0004.
The SBE created the Standards in 1998, see Standards at 0002, and they have not changed since.
1. Standards Adoption Process
Notably, Plaintiffs did not include in their complaint any allegations about the standards adoption
process, nor do they list the standards adoption process as a basis for their Establishment Clause claim.
See Compl. ¶¶ 27–42 (factual allegations about
Standards, addressing only their content); id.
¶¶ 144–46 (Establishment Clause claim based on
content of Standards, process of adopting Framework,
and content of Framework). This is presumably because a claim based on the 1998 standards adoption
process would be time-barred. However, Plaintiffs do
refer to the “[d]isfavored treatment of Hinduism in
the development of the Standards” in their summary
judgment motion. See P. MSJ at 3. They assert that,

26a
in drafting the Standards, “[n]o apparent effort was
made to obtain input from a person affiliated with a
Hindu organization,” unlike persons from other religious organizations, and that an Islamic group alerted the Standards Commission to language about religion “developing,” yet the Commission did not apply
that advice to Hinduism. Id. at 4–5.
On the first point, Plaintiffs rely on an unsworn article about the standards adoption process, by someone without apparent personal knowledge of the
facts, which they submit for the truth of the matter,
and which is therefore inadmissible hearsay. See id.
(citing Katon Decl. (dkt. 231-2) Ex. B (Fogo article) ).
On the second point, Plaintiffs rely on a selection of
documents a CAPEEM board member copied from
the California State Archives, representing some proposed edits to the 1998 standards. See id. (citing Kumar Decl. Ex. A (archives excerpts) ). Although Defendants object that these archive materials lack
foundation and are hearsay, see D. Opp’n to P. MSJ
(dkt. 225) at 4, the declarant sets out in his declaration the circumstances under which he copied them,
see Kumar Decl. ¶ 9, and Plaintiffs do not truly offer
them for the truth of any particular edit. Moreover, it
seems an uncontroversial proposition that these represent some fraction of the feedback the Commission
received about the Standards.
Plaintiffs make clear in their reply brief that the
standards adoption process is still not a standalone
basis for their claim. They explain: “The Standards
are the violation. Standards Commission actions from
the past are evidence of the violation—not the violation itself.” P. Reply re MSJ (dkt. 227) at 3. Further,
they rightly quote the Ninth Circuit as observing that
“reasonable observers have reasonable memories, and
[the Court’s] precedents sensibly forbid an observer to

27a
‘turn a blind eye to the context in which [the] policy
arose.’ ” See id. at 4 (quoting Trunk v. City of San Diego, 629 F.3d 1099, 1118 (9th Cir. 2011) ); see also
Capitol Square Review & Advisory Bd. v. Pinette, 515
U.S. 753, 780, 115 S.Ct. 2440, 132 L.Ed.2d 650 (1995)
(O’Connor, J., concurring in part and concurring in
the judgment) (“[T]he reasonable observer in the endorsement inquiry must be deemed aware of the history and context of the community and forum in
which the religious display appears.”). Accordingly,
the Court will consider Plaintiffs’ evidence and arguments about the standards adoption process for that
purpose.
2. Standards Content
The Standards purportedly “require students not
only to acquire core knowledge in history and social
science, but also to develop the critical thinking skills
that historians and social scientists employ to study
the past and its relationship to the present.” Id. at
0006. Plaintiffs are primarily concerned with a portion of the “Grade Six World History and Geography:
Ancient Civilizations” section of the Standards,
which, on half of a page, lists seven topics under the
heading of “Students analyze the geographic, political, economic, religious, and social structures of the
early civilizations of India.” See P. Opp’n to D. MSJ
(dkt. 216-1) at 9; P. MSJ at 13; Standards at 0032.
B. Framework
The legislature directed the SBE to adopt model
curriculum frameworks to serve as guidelines for local districts, filling in some of the historical material
that corresponds to each of the Standards. See Cal.
Educ. Code §§ 60000, 60001, 60005, 60200(c); Standards at 0006 (“The standards do not exist in isolation.
The History-Social Science Framework will be revised

28a
to align with the standards . . . . Teachers should use
these documents together.”). The SBE adopted the
History-Social Science Framework at issue in this
case in 2016, see D. MSJ Ex. 2 (dkt. 165-2), and that
process is part of this case, see Compl. ¶¶ 144–46.
1. Framework Adoption Process
The Framework adoption process began in 2008,
when the SBE approved a plan to update the existing
framework. D. MSJ Ex. 37–38 (dkt. 165-5); McDonald
Decl. (dkt. 163-1) ¶ 2. From late March to September
2008, the California Department of Education (CDE)
and SBE solicited applications for membership on a
Curriculum Framework and Evaluation Criteria
Committee (CFCC). McDonald Decl. ¶¶ 2–3; see also
5 C.C.R. § 9511 (allowing establishment of CFCC,
setting forth composition and membership qualifications for CFCC members). The SBE received 81 applications, and, in November 2008, appointed twenty
individuals to a CFCC. McDonald Decl. ¶¶ 3–5. The
CFCC met for five separate two-day sessions, which
were publicly noticed, open to the public, and included a period for public comment. Id. ¶ 6. It produced a
draft updated framework, which the Instructional
Quality Commission (IQC) voted to release to a 60day public review and comment period. Id. ¶ 7. In July of 2009, however, citing fiscal troubles, the Governor essentially suspended all work related to the curriculum frameworks. Id.
The SBE resumed work on the framework in September of 2014, releasing a revised timeline. Id. ¶ 8.
Later that month, the IQC voted to release for a 60day public review and comment period the existing
draft framework with certain CDE proposed edits. Id.
During the first 60-day review period, CDE received
more than 700 public comments from over 480 different commenters. Id. ¶ 9. In February 2015, Executive

29a
Director Tom Adams stated in a IQC meeting that “if
funding is provided[,] CDE will contract with experts
to review the proposed edits to the course description
chapters as well as a professional writer to prepare
new drafts.” D. MSJ Ex. 62 at 1730. In August of
2015, Tom Adams emailed a member of CAPEEM,
stating “the decision of whether experts are needed
will be decided after the October 8–9 meeting.” Kumar Decl. Ex. E (dkt. 215-1) at PLS00153.
For two days in October 2015, the IQC’s HistoryScience Subject Matter Committee (HSS SMC) considered and heard public comment on a revised
framework draft that incorporated proposed revisions
based on public comments, and forwarded it to the
full IQC with additional edits discussed at the meeting. D. MSJ Exs. 65–67; Gregson Decl. ¶¶ 8–9. The
HSS SMC also decided at that time not to recommend
that the SBE solicit applications for content review
experts to opine on the draft. D. MSJ Ex. 67 at 1774.
In November 2015, a group of history professors identifying themselves as the “South Asia Faculty Group”
(“SAFG”) submitted a report on the draft framework,
with proposed edits. Order re MTD at 3, 18; D. MSJ
Ex. 18 (November 18, 2015 SAFG submission). The
SAFG later submitted additional feedback. See D.
MSJ Ex. 19 (February 24, 2016 letter with “extended
corrections”); id. Ex. 20 (March 23, 2016 letter “to
clarify some of our rejected edits”); id. Ex. 21 (May
17, 2016 letter “to register our acceptance in the main
of the last round of edits”). Plaintiffs assert that Tom
Adams secretly recruited the SAFG to provide feedback on Hinduism in the Framework,3 without pub3 Plaintiffs point to an email by an SAFG member, which
states, “. . . I spoke with Tom Adams on Friday. We are asked to
submit a short, concise report . . . .” See P. MSJ at 9–10. This
email appears to be hearsay. See Fed. R. Evid. 801(c); Orr v.

30a
licly acknowledging that he had handpicked the
group to obtain a desired (anti-Hindu) viewpoint. See
P. Opp’n to D. MSJ at 5–6.
After hearing public comment and accepting certain
proposed edits at its November 2015 meeting, the
IQC voted to recommend the resulting framework
draft to the SBE, triggering another 60-day public review and comment period, between December 17,
2015 and February 29, 2016. Id. ¶ 10; Gregson Decl.
(dkt. 163-3) ¶ 11 (attaching November 2015 meeting
minutes), D. MSJ Ex. 68 (dkt. 165-5) at 1777–79,
1783–84. During that period, the CDE received over
10,000 e-mailed comments and thousands of additional printed comments. McDonald Decl. ¶ 10. At the
March 2016 HSS SCM meeting, the committee reviewed the public comments received during the last
comment period and summarized recommendations,
then heard public comment from 90 individuals, and
voted to recommend additional edits to the Framework. Gregson Decl. ¶¶ 12–14; D. MSJ Exs. 69–71
(dkt. 165-5). At its May 2016 meeting, the IQC, after
discussion and public comment, approved a majority
of those edits, and made additional changes such as
rejecting edits that would have replaced references to
ancient India with “South Asia.” Gregson Decl. ¶ 15;
D. MSJ Ex. 72 (IQC minutes of May 19–20, 2016
meeting) at 1801; id. Ex. 73 (July 2016 CBE agenda
summarizing process) at 1809; Cos Decl. ¶ 11.
On July 14, 2016, the SBE voted unanimously to
adopt the current Framework. See Cos Decl. ¶ 13; D.
MSJ Ex. 75 at 1891–95.
Bank of America, NT & SA, 285 F.3d 764, 783 (9th Cir. 2002) (to
defeat summary judgment, opponent “must respond with more
than mere hearsay and legal conclusions.”) (internal quotation
marks omitted).

31a
2. Framework Content
The Framework describes itself as having “a focus
on student inquiry,” D. MSJ Ex. 2 (dkt. 165-1)
(“Framework”) at 0074, as encouraging students to
“grapple with multiple and often competing pieces of
information,” and as emphasizing “history as a constructed narrative that is continually being reshaped,” “rich with controversies and dynamic personalities,” id. at 0085. Although the Framework itself is over 800 pages, Framework at 0070–0923,
Plaintiffs are primarily concerned with a six-page
portion of the Grade Six Framework entitled “The
Early Civilizations of India,” see P. Opp’n to D. MSJ
at 5; P. MSJ at 16–18; Framework at 0242–47.
Both the Standards and the Framework address
the role of several major world religions in shaping
history. See generally Standards; Framework; see also
Framework Appendix F at 0864 (“much of history,
art, music, literature, and contemporary life are unintelligible without an understanding of the major
religious ideas and influences that have shaped the
world’s cultures and events.”). The Framework includes an Appendix addressing the challenging role of
religion in teaching history and social science—it
quotes from the First Amendment as “the hallmark of
every social studies classroom,” explains that “public
schools may not promote or inhibit religion,” and directs that “religion and religious convictions, as well
as nonbelief” be “treated with respect.” Id. at 0865. It
states that “[t]he school’s approach to religion is academic, not devotional,” that “[t]he school may include
study about religion as part of the history-social science curriculum, but it may not sponsor the practice
of religion,” and that “[t]he school may educate about
all religions but may not promote or denigrate any
religion.” Id. at 0866. It also provides that “Classroom

32a
methodologies must not include religious role-playing
activities or simulations or rituals or devotional acts.”
Id. at 0867.
Students do not read either the Standards or the
Framework. Order re MTD at 2.
C. Procedural History
Plaintiffs brought suit in this Court in February
2017, alleging pursuant to 42 U.S.C. § 1983 (1) denial
of substantive due process by interference with the
liberty interest of parents to direct the education of
their children; (2) violation of the Establishment
Clause of the First Amendment; (3) violation of the
Free Exercise Clause of the First Amendment; and
(4) violation of the Equal Protection Clause of the
Fourteenth Amendment. See generally Compl. Defendants moved to dismiss all claims pursuant to
Federal Rule of Civil Procedure 12(b)(6). MTD (dkt.
88). The Court dismissed with prejudice Plaintiffs’
substantive due process claim, Free Exercise claim,
and Equal Protection claim. See Order re MTD at 21.
As to Plaintiffs’ Establishment Clause claim, the
Court recognized that Plaintiffs could state a claim by
meeting any of the three prongs of the Lemon test,
but held that they failed to do so as to either the first
or the third prong. See id. at 10–13. The Court held
that Plaintiffs had stated a claim as to the second
prong of the Lemon test, which asks whether the government action has the principal or primary effect of
enhancing or inhibiting religion. Id. at 13–16. After
discussing a letter quoted in the Complaint from a
Hindu student who felt humiliated by a role-playing
exercise about caste, the Court held:
In light of the Supreme Court’s admonition that
courts should be “particularly vigilant in monitoring compliance with the Establishment Clause in

33a
elementary and secondary schools,” Edwards,
482 U.S. at 583–84 [107 S.Ct. 2573], the Court
will infer at this point that this sixth grader is
reasonable, or that a reasonable sixth grader
would perceive the same message [that the primary message from the curriculum is that Hinduism is cruel and unjust], see Usher [v. City of
Los Angeles], 828 F.2d [556] at 561 [ (9th Cir.
1987) ] (in evaluating a motion to dismiss, a
court must draw all reasonable inferences in favor of the plaintiff).
Id. at 15–16. In so ruling, the Court distinguished
California Parents for the Equalization of Educational Materials v. Noonan, 600 F.Supp.2d 1088 (E.D.
Cal. 2009), a very similar case in which CAPEEM alleged that the 2005-2006 history-social science textbook adoption process discriminated against Hinduism, explaining that “Noonan adjudicated a motion
for summary judgment, which involves a different
standard than a motion to dismiss.”4
Defendants now move for summary judgment, arguing that the Standards and Framework do not
primarily communicate disapproval of Hinduism. See
D. MSJ. Plaintiffs oppose Defendants’ motion, and
file their own cross-motion for summary judgment,
arguing that the “Standards and Framework violate
the Establishment Clause by denigrating Hinduism”
under the second Lemon prong. See P. MSJ at 12; P.
Opp’n to D. MSJ at 7.5
4 The textbooks at issue in that case were required to be
aligned with the same Standards challenged here, and the
Framework that directly preceded the version challenged here.
See Noonan, 600 F.Supp.2d at 1097.
5 Defendants also object extensively to Plaintiffs’ evidence.
See, e.g., D. Opp’n to P. MSJ at 15–19; D. Obj. to P. Reply Ev.

34a
II. LEGAL STANDARD
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any material fact and the movant is entitled to judgment as
a matter of law.” Fed. R. Civ. P. 56(a). A fact is material if it could affect the outcome of the case under
governing law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248, 106 S.Ct. 2505, 91 L.Ed.2d 202 (1986).
A dispute of material fact is genuine if the evidence,
viewed in the light most favorable to the nonmoving
party, “is such that a reasonable jury could return a
verdict for the nonmoving party.” Id.
The party moving for summary judgment bears the
initial burden of identifying those portions of the
pleadings, discovery, and affidavits that demonstrate
the absence of a genuine issue of material fact. Celotex Corp. v. Catrett, 477 U.S. 317, 323, 106 S.Ct.
2548, 91 L.Ed.2d 265 (1986). On an issue on which it
will have the burden of proof at trial, the moving party must affirmatively show that no reasonable jury
could find other than in the moving party’s favor. Id.
at 331, 106 S.Ct. 2548 (Brennan, J., dissenting).
Once the moving party meets its initial burden, the
nonmoving party must go beyond the pleadings and
show that there is a genuine issue for trial. Anderson,
477 U.S. at 250, 106 S.Ct. 2505. The nonmoving party
does this by citing to specific parts of the materials in
the record or by showing that the materials cited by
the moving party do not compel a judgment in the
moving party’s favor. Fed. R. Civ. P. 56(c). Because
the court has no obligation to “scour the record in
search of a genuine issue of triable fact,” the nonmoving party must “identify with reasonable particularity
(dkt. 230). The Court only reaches those objections necessary to
this decision.

35a
the evidence that precludes summary judgment.”
Keenan v. Allan, 91 F.3d 1275, 1279 (9th Cir. 1996).
If the nonmoving party fails to raise a genuine issue
as to any material fact, the moving party is entitled
to judgment as a matter of law. Anderson, 477 U.S. at
250, 106 S.Ct. 2505. In determining whether there is
a genuine issue for trial, the court does not weigh the
evidence, assess the credibility of witnesses, or resolve issues of fact. Id. at 249, 106 S.Ct. 2505.
III. DISCUSSION
This Order first discusses the fundamentals of Establishment Clause jurisprudence, and then the evidence in the Standards and Framework that bears on
Plaintiffs’ Establishment Clause claim. It applies the
facts of this case to the law, and concludes that the
challenged materials do not have the primary effect
of denigrating Hinduism.
A. Establishment Clause Jurisprudence
“The clearest command of the Establishment
Clause is that one religious denomination cannot be
officially preferred over another.” Larson v. Valente,
456 U.S. 228, 244, 102 S.Ct. 1673, 72 L.Ed.2d 33
(1982). In Lemon, 403 U.S. at 612–13, 91 S.Ct. 2105,
the Supreme Court explained that governmental action is permissible under the Establishment Clause if
(1) it has a secular purpose, (2) the “principal or primary effect” neither advances nor inhibits religion,
and (3) it does not foster “excessive state entanglement” with religion. At issue in this case is the second, primary effect, prong. That prong asks “whether
it would be objectively reasonable for the government
action to be construed as sending primarily a message of either endorsement or disapproval of religion.” Vernon v. City of Los Angeles, 27 F.3d 1385,
1398 (9th Cir. 1994). “A government practice has the

36a
effect of impermissibly advancing or disapproving of
religion if it is ‘sufficiently likely to be perceived by
adherents of the controlling denominations as an endorsement, and by nonadherents as a disapproval, or
their individual religious choices.’ ” Brown v. Woodland Joint Unified Sch. Dist., 27 F.3d 1373, 1378 (9th
Cir. 1994).
Courts are to assess a government action’s primary
effect using a “reasonable observer standard.” Id. at
1378. “ ‘This hypothetical observer is informed as well
as reasonable; we assume that he or she is familiar
with the history of the government practice at issue.’ ” Id. (quoting Kreisner v. City of San Diego, 1
F.3d 775, 784 (9th Cir. 1993), cert. denied, 510 U.S.
1044, 114 S.Ct. 690, 126 L.Ed.2d 657 (1994)). Because
the standard is objective, a particular observer’s lay
or expert opinion is irrelevant. See Noonan, 600
F.Supp.2d at 1118 (rejecting use of experts in favor of
hypothetical observer); Brown, 27 F.3d at 1382 (expert testimony irrelevant to primary effect test); Alvarado v. City of San Jose, 94 F.3d 1223, 1232 (9th
Cir. 1996) (“reasonable observer is not an expert on
esoteric [matters], nor can he or she be turned into
one by any publicity generated by plaintiffs’ lawsuit.”). The Ninth Circuit has explained that “[i]f an
Establishment Clause violation arose each time a
student believed that a school practice either advanced or disapproved of a religion, school curricula
would be reduced to the lowest common denominator,
permitting each student to become a ‘curriculum review committee’ unto himself.” Brown, 27 F.3d at
1379. A reasonable observer is also not aware of undisclosed intent. See McCreary Cty. v. ACLU, 545
U.S. 844, 863, 125 S.Ct. 2722, 162 L.Ed.2d 729 (2005)
(“If someone in the government hides religious motive
so well that the ‘objective observer, acquainted with

37a
the text, legislative history, and implementation of
the statute,’ cannot see it, then without something
more the government does not make a divisive announcement that in itself amounts to taking religious
sides.”).
The Ninth Circuit has recognized that when the
challenged government action arises in elementary
school instruction, the “reasonable observer” test
should take into account the more impressionable
and vulnerable nature of school-age children. Brown,
27 F.3d at 1378–79. Courts are to be “particularly
vigilant in monitoring compliance with the Establishment Clause in elementary and secondary
schools.” Edwards v. Aguillard, 482 U.S. 578, 583–84,
107 S.Ct. 2573, 96 L.Ed.2d 510 (1987). This is because younger children are more vulnerable to the
“subtle coercive pressure in the elementary and secondary public schools.” Lee v. Weisman, 505 U.S. 577,
592, 112 S.Ct. 2649, 120 L.Ed.2d 467 (1992).6 Bal-

6 In fact, Brown held that the primary effect prong of the
Lemon test asks whether an “objective observer in the position
of an elementary school student would perceive a message of . . .
disapproval [of religion].” Brown, 27 F.3d at 1379. Based on
Brown and Noonan, see 600 F.Supp.2d at 1119 (“CAPEEM must
show that an objective sixth grade student . . .”), the Court previously held that the reasonable observer in this case is the reasonable sixth grader. See Order re MTD at 14. Defendants argue
that there is some authority suggesting that the Court should
view the reasonable observer as an adult. See D. Reply (dkt.
223) (citing Good News Club v. Milford Sch., 533 U.S. 98, 119,
121 S.Ct. 2093, 150 L.Ed.2d 151 (2001) (“We decline to employ
Establishment Clause jurisprudence using a modified heckler’s
veto, in which a group’s religious activity can be proscribed on
the basis of what the youngest members of the audience might
misperceive”); Newdow v. Rio Linda Union Sch. Dist., 597 F.3d
1007, 1037–38 (9th Cir. 2010) (“a child’s understanding cannot
be the basis for our constitutional analysis.”) ).

38a
anced against this guidance is “the broad discretion of
the school board to select its public school curriculum.” See Noonan, 600 F.Supp.2d at 1116. The Supreme Court “has long recognized that local school
boards have broad discretion in the management of
school affairs” and that public education “is committed to the control of state and local authorities.” Bd.
of Educ. v. Pico, 457 U.S. 853, 863, 102 S.Ct. 2799, 73
L.Ed.2d 435 (1982). “Judicial interposition in the operation of the public school system of the Nation raises problems requiring care and restraint,” and courts
In Good News Club, the issue was whether the government’s
rejection of an organization’s request to hold weekly afterschool
meetings in a school cafeteria violated the Establishment
Clause. 533 U.S. at 102–03, 121 S.Ct. 2093. The Court held that
the relevant community was the parents who would choose
whether their children would attend the meetings, not the children themselves, id. at 115, 121 S.Ct. 2093, and that its cases
about the impressionability of school children were irrelevant
because “when individuals who are not schoolteachers are giving
lessons after school to children permitted to attend only with
parental consent, the concerns expressed in [such cases are] not
present,” id. at 117, 121 S.Ct. 2093. Good News Club is therefore
distinguishable, because the material at issue here is the curriculum intended to be taught by public schoolteachers to schoolchildren. In Newdow, the Ninth Circuit was applying the “endorsement test,” not at issue here, and it relied on Good News
Club in rejecting “what a child reciting [the Pledge of Allegiance] may or may not understand about the historical significance of the words being recited.” See 597 F.3d at 1037–38. The
circuit explained that “some school children who are unaware of
its history may perceive the phrase ‘under God’ in the Pledge to
refer exclusively to a monotheistic God of a particular religion,”
but that “a reasonable observer” who was “aware of this history
and origins of the words” would not. Id. at 1038.
This Court agrees that a reasonable observer would be familiar with the history of the government’s practice. See Brown, 27
F.3d at 1378. Its analysis here does not depend on a child’s misunderstanding, nor does it depend on whether the reasonable
observer is a reasonable sixth grader or a reasonable adult.

39a
should only intervene if “basic constitutional values”
are “directly and sharply implicate[d].” Epperson v.
Arkansas, 393 U.S. 97, 104, 89 S.Ct. 266, 21 L.Ed.2d
228 (1968).
B. Evidence in the Standards and Framework
Plaintiffs identify numerous elements of the Standards and Framework that they argue demonstrate
hostility toward Hinduism.7 But even considering the
evidence in the light most favorable to Plaintiffs,
many of the interpretations urged by Plaintiffs are
either inaccurate or incomplete. See Scott v. Harris,
550 U.S. 372, 380, 127 S.Ct. 1769, 167 L.Ed.2d 686
(2007) (court on summary judgment need not adopt
party’s story when it is contradicted by the record
such that no reasonable jury could believe it); T.W.
Elec. Serv. v. Pacific Elec. Contractors Ass’n, 809 F.2d
626, 631–32 (9th Cir. 1987) (court need not draw unreasonable inferences).
1. Secular Treatment
One of Plaintiffs’ chief complaints is that the
Standards and Framework treat other religions as
having divine origins, but discuss only the Hindu religion from a secular perspective. See P. MSJ at 16–
17 (Framework “strips the Hindu belief system of any
divine origins—it depicts the religion simply as a social construct.”). The Court addressed a related argument at the motion to dismiss phase. Then, Plaintiffs argued that the Standards and Framework teach
other religions as if they are historically accurate,
and therefore endorse those religions to the exclusion
7 This section discusses what the Court understands to be the
most significant of Plaintiffs’ concerns with the Standards and
Framework. The Court necessarily holds that the other concerns
not addressed here do not rise to the level of Establishment
Clause violations.

40a
of Hinduism. See Compl. ¶¶ 33, 42, 108; Opp’n to
MTD (dkt. 100) at 20. The Court disagreed, holding
that “the text does not support” that assertion, MTD
at 10, and that “[t]he curriculum teaches the development of Judaism, not the historical accuracy of biblical stories,” id. at 11. So too with Christianity. Id.
The Court concluded that Defendants’ purpose in enacting the challenged curriculum was “teaching the
history of ancient civilizations.” Id.
As evidence of Hinduism’s unfairly secular treatment, Plaintiffs point to language in the Framework
about Hinduism evolving or developing. See P. MSJ
at 13–14 (discussing lesson that Brahmanism8
evolved into early Hinduism); P. Opp’n to D. MSJ at
2–3 (objecting to the word “developed”).9 But the
Standards and Framework also acknowledge the role
of humans in the development of other religions. See,
e.g., Standards at 31 (“Discuss how Judaism survived
and developed”); id. at 36 (“Trace the development of
distinctive forms of Japanese Buddhism”); id. at 38
8 Plaintiffs rely on an expert, Dr. Khyati Y. Joshi, to opine
about the significance of Brahmanism, and many other subjects.
See P. Opp’n to D. MSJ at 9. The Court grants Defendants’ objection to Joshi’s expert report. See D. Reply at 5–7. The report
is unsworn, but more importantly, it is not relevant to the “primary effect” question. See Fed. R. Evid. 702 (requiring testimony to be relevant to task at hand); Brown, 27 F.3d at 1382 (rejecting expert testimony as irrelevant to whether a school practice appears to endorse religion); Noonan, 600 F.Supp.2d at 1118
(same); Alvarado, 94 F.3d at 1232 (reasonable observer not an
expert). The Court further agrees with Defendants about the
failure of the Joshi Reply Declaration (dkt. 227-3) to cure the
problems with the Joshi Report. See State Defendants’ Objections to Plaintiffs’ Reply Evidence (dkt. 230).
9 In their reply brief, Plaintiffs argue that what they object to
is the suggestion “that human beliefs and practices evolved into
the religion of Hinduism.” See P. Reply at 6–7. The Court views
this as a difference of degree and not kind.

41a
(“List the causes for the internal turmoil in and
weakening of the Catholic church”); Framework at
236 (“Judaism was heavily influenced by the environment, the history of the Israelites, and their interactions with other societies.”); id. at 271 (“As it became a state religion, Christianity changed . . . . The
teacher points out that all religions change over
time.”); id. at 274–75 (“How did the religion of Christianity develop and change over time?”). Such language is consistent with the curriculum’s secular
purpose of teaching human history.10
Plaintiffs likewise contend that the Standards and
Framework fail to focus on Hindus’ belief in their religion’s divine origins. See P. MSJ at 14–15. But the
Framework does talk about the divine in Hinduism,
even if it does not preface that discussion as Plaintiffs
would prefer, by saying “According to Hindu tradition, ______.” See P. MSJ at 17–18. The Framework
states that “Ancient Hindu sages” revealed the concept “of Brahman as the divine principle of being,”
and as an “all-pervading divine supreme reality” that
“may be manifested in many ways, including incarnation in the form of Deities.” Framework at 244. In
continues: “These Deities are worshipped as distinct
personal Gods or Goddesses, such as Vishnu who preserves the world, Shiva who transforms it, and Sarasvati, the Goddess of learning.” Id. It then describes
how “[t]hese teachings were transmitted orally at
first, and then later in written texts, the Upanishads
and later, the Bhagavad Gita.” Id.
10 Moreover, the curriculum describes positive change in Hinduism, undermining the notion that an inflexible social hierarchy is a central Hindu belief. See Framework at 284 (“Hinduism
continued to evolve with the Bhakti movement,” which “emphasized” “social and religious equality and a personal expression of
devotion to God in the popular vernacular languages.”).

42a
Plaintiffs complain that Defendants treat the Bhagavad Gita as mere secular literature, pointing to a
line in the Standards. See P. MSJ at 14 (asserting
that “sacred Hindu scripture, the Bhagavad Gita, is
not described as what Hindus believe to be the word
of God, but as ‘important aesthetic and intellectual
traditions’ and ‘literature.’ ”) (citing Standards at 32
(“Discuss important aesthetic and intellectual traditions (e.g., Sanskrit literature, including the Bhagavad Gita; medicine; metallurgy; and mathematics,
including Hindu-Arabic numerals and the zero).”) ).
Presumably the Standards do not explain the divine
significance of the Bhagavad Gita because there are
but seven bullet points covering all of ancient India.
See Standards at 32. The Standards are to be read in
conjunction with the Framework, see Standards at
0006, and the Framework provides a bit more context
about the role the Bhagavad Gita played, see Framework at 244 (“These teachings were transmitted orally at first, and then later in written texts, the Upanishads and, later, the Bhagavad Gita.”). However, it is
unsurprising that the Framework treats the Bhagavad Gita in a secular way in the context of a history
curriculum—it does the same with other religions’
sacred texts, listing it along with the Torah, Hebrew
Bible, Qur’an, and Christian Bible as “classical texts”
to study when one is focused on “the human experience and [exploring] the various ways in which human beings affect and express their relationship to
their physical, intellectual, social, and political environments.” See Framework at 385. In addition,
though Plaintiffs object to the Framework’s treatment of another sacred book, the Ramayana, as a
“story,” P. MSJ at 18, the Framework states that that
book, “the story of Rama, an incarnation or avatar of
Vishnu,” is a “text that Hindus rely on for solutions to
moral dilemmas” and “one of ancient India’s most

43a
important literary and religious texts.” See Framework at 246. It does not use the word “story” in a
dismissive sense, but calls the book “important.” See
id.
2. Caste System
Another of Plaintiffs’ primary complaints about the
Standards and Framework is their over-emphasis on
the caste system. See P. MSJ at 16 (“the Framework’s
enormous focus on caste within its coverage of Hinduism is itself contemptuous and unlike the treatment
of any other faith.”). The Standards include, under
the heading “Students analyze the geographic, political, economic, religious, and social structures of the
early civilizations of India,” the bullet point “Outline
the social structure of the caste system,” Standards at
32, and the Framework expressly connects the caste
system to Hinduism, stating, “Teachers should make
clear to students that [the caste system] was a social
and cultural structure as well as a religious belief,”
Framework at 246. Plaintiffs do not maintain that it
is historically inaccurate to link the caste system to
Hinduism; rather, they argue that the curriculum’s
spotlight on caste gives students an unfairly negative
view of Hinduism.11 See Compl. ¶ 82 (“Many would
11 Plaintiffs assert that “By word count, 47 percent of the
Framework’s discussion in sixth grade of Hinduism supporting
individuals, rulers and societies is on caste.” See P. MSJ at 16,
n.21 (citing to dkt. 172-4, a color coded version of the Framework purporting to depict negative, neutral and positive treatment of Hinduism); see also id. at 16 (“71 percent is negative by
word count, while only 6 percent is positive”). Defendants rightly note that Plaintiffs rely on this word counting system without
any explanation of its methodology or creator. See D. Reply at 2.
The document Plaintiffs point to, an attachment to a proposed
amended complaint that the Court disallowed, see dkt. 172-1
¶ 158, is incredibly subjective and of no use to the Court on
summary judgment. For example, Plaintiffs have inexplicably

44a
argue that caste was not and is not a Hindu belief.
But irrespective of the accuracy of the language, it is
certainly derogatory and inconsistent with . . . the
treatment of other religions in the Framework.”); see
also P. Reply at 7 (“highly debatable” whether “caste
is a Hindu religious belief”). Plaintiffs also contend
that the Framework “fails to note that the caste system has existed in India among Sikhs, Christians,
Muslims and Buddhists, but not among Hindus of Indonesia and Fiji.” P. MSJ at 18 (citing what appears
to be an inadmissible article about the caste system).
While it is true that the Framework does not contain the mitigating language Plaintiffs seek, it contains other mitigating language, which makes clear
that the caste system existed in a historical context
and was not unique to ancient India. See, e.g.,
Framework at 245 (“As in all early civilizations, Indian society witnessed the development of a system of
social classes.”); id. (“This system, often termed caste,
provided social stability and gave an identity to each
community.”); id. (“Over the centuries, the Indian social structure became more rigid, though perhaps not
more inflexible than the class divisions in other ancient civilizations.”); id. at 246 (“Today many Hindus,
in India and in the United States, do not identify
themselves as belonging to a caste.”);12 id. (“As in
Mesopotamia and Egypt, priests, rulers, and other
elites used religion to justify the social hierarchy.”).
highlighted in red, indicating a negative portrayal of Hindus,
the sentences “Ancient India experienced a Vedic period (ca.
1500–500 BCE), named for the Vedas, which were composed in
Sanskrit,” dkt. 172-4 at 162, and “Later in the Vedic period, new
royal and commercial towns arose along the Ganges (aka Ganga), India’s second great river system,” id. at 163.
12 But see P. Opp’n to D. MSJ at 13 (opining that this sentence
“is patronizing and implies that the caste system is inherently
Hindu.”).

45a
This language goes a long way to contextualize and
soften the subject of caste.
Plaintiffs point next to a textbook entitled Discovery Education, Discovery Education Social Science
Techbook, Grades Six Through Eight, which Plaintiffs
assert includes an exercise for role playing the caste
system. See P. Opp’n to D. MSJ at 3–4 (citing Kumar
Decl. (dkt. 215-1) at PLS00184–87). Plaintiffs add
that the book includes a lesson objective directing
teachers to “Connect the beliefs of Hinduism to the
caste system and other elements of ancient Indian
life.” Id. at 4 (citing Kumar Decl. (dkt. 215-1) at
PLS00201). This evidence is misleading. First, Discovery Education appears to have been adopted as
part of the November 2017 instructional materials
adoption, see Pl. Admin. Mot. (dkt. 196) Ex. 5 (“2017
History-Social Science Adoption Report”)—a process
that Plaintiffs do not challenge in their complaint,
and which involves a different regulatory process
than those pertaining to framework adoption. See D.
Reply at 11 (citing 5 C.C.R. §§ 9511–9526). While the
book is slightly relevant in that it demonstrates a local district’s interpretation of the Standards and
Framework, it is not Defendants’ creation. More importantly, the role playing exercise is aimed at teachers, not students, and it does not mention Hinduism
or even the caste system. See Kumar Decl. at
PLS00186–87 (“Announce to the class that society in
ancient India gave different people different levels of
opportunity, much like this activity.”; “Next, post the
Essential Question: What effects did power and social
class have on the lives of the ancient Indian people?”;
“Encourage them to think about the impact that
money and power may have had on their social standing, or position, within Indian society.”). The “Lesson
Overview” that Plaintiffs tout as linking “the beliefs

46a
of Hinduism to the caste system and other elements
of ancient Indian life” actually relates to another lesson (lesson 6.3), not the lesson containing the role
playing exercise (lesson 6.2). See id. at PLS00201.
Moreover, even if the book was a part of this case
and even if it explicitly directed students to participate in a caste system role playing exercise, that is
not the kind of role playing that the Framework itself
forbids and that courts view with great suspicion. It
does not involve the role playing of a devotional act,
like taking communion, but rather of a historical social system. See Framework Appendix F at 867
(“Classroom methodologies must not include religious
role-playing activities or simulations of rituals or devotional acts.”); Brown, 27 F.3d at 1380 (“active participation in ‘ritual’ poses a greater risk of violating
the Establishment Clause than does merely reading,
discussing or thinking about religious texts”); but see
id. n.6 (“a reenactment of the Last Supper or a Passover dinner might be permissible if presented for historical or cultural purposes.”).13
Finally, on the subject of role-playing, this Court’s
order at the motion to dismiss phase discussed an allegation in the Complaint that the “Commission was
made acutely aware of the pain and humiliation the
curriculum’s portrayal of Hinduism inflicts on Hindu
students,” through the letter of a sixth grade student
about a caste role-playing exercise in her classroom
two years earlier. See Order re MTD at 15–16; Compl.
¶ 85. Although one individual’s opinion is not controlling given the objective nature of the reasonable ob13 Because the Court rejects Plaintiffs’ interpretation of the
“intricate role-playing exercise of the caste system,” the Court
also rejects Plaintiffs’ argument that a reasonable observer
would recognize that that exercise selectively violated California
law. See P. MSJ at 20–23.

47a
server test, see Brown, 27 F.3d at 1379, the Court
stated that, because it was adjudicating a motion to
dismiss, it would “infer at this point that this sixth
grader is reasonable, or that a reasonable sixth grader would perceive the same message.” Order re MTD
at 16. Defendants accurately note, however, that (1)
the exercise apparently took place two years before
the Framework at issue was adopted,14 see Compl.
¶ 85 (“two years prior” to adoption process); (2) the
specific instructional method described was employed
at the local level and was not required by the Framework; and (3) the exercise was arguably contrary to
the guidance in the (subsequently adopted) Framework, see Framework Appendix F (“Classroom methodologies must not include religious role-playing activities”). See D. MSJ at 3.15
3. Aryan Invasion
Plaintiffs also object to the Standards and Framework’s treatment of the Aryan Invasion Theory,
14 Plaintiffs’ argument that “the offensive language of the current Framework proclaiming that caste is a religious belief . . . is
virtually identical to the 2005 version of the Framework that
was in force when the student was treated so cruelly,” P. Opp’n
to D. MSJ at 18, fails to note that the 2005 version of the
Framework was in effect when Defendants adopted the instructional materials upheld in Noonan, see Noonan, 600 F.Supp.2d
at 1097.
15 The Court does not rely on Defendants’ additional argument that Plaintiffs are making a facial challenge and so the
law presumes that local districts will implement the curriculum
legally, see id., as Plaintiffs contest this point, see P. Opp’n to D.
MSJ at 19 (“Although the Standards and Framework violate the
Establishment Clause on their face, Plaintiffs never limited
their claim to a facial challenge”); but see, e.g., Stipulation (dkt.
90) ¶ 1 (Plaintiffs stipulating that individual school districts
“are not necessary parties in the determination of the constitutional claims in the action.”).

48a
which Plaintiffs claim, citing the expert report that
the Court has rejected herein, is a “long-ago debunked, Orientalist theory” that “present-day India
and Pakistan were invaded, in approximately 1500
BCE, by the ‘Aryans,’ a tribe of European origin, and
that the Aryans . . . became the creators of Hindu civilization.” P. MSJ at 15 (citing Joshi Report at 4). The
Standards do state “Discuss the significance of the
Aryan invasions,” see Standards at 32, but they must
be read together with the Framework, see Cal. Educ.
Code §§ 60000, 60001, 60005, 60200(c); Standards at
0006. The Framework does not use the term “Aryan
Invasion.” It states that, in the Vedic period (between
1500 and 500 BCE), “according to many scholars,
people speaking Indic languages, which are part of
the larger Indo-European family of languages, entered South Asia, probably by way of Iran.” Framework at 243–44. It continues, “Gradually, Indic languages, including Sanskrit, spread across northern
India.” Id. at 244. After another couple of sentences
about language, the Framework states: “Another
point of view suggests that the language was indigenous to India and spread northward.” Id.
This discussion about how different languages developed and spread in ancient India is simply not, as
Plaintiffs assert, an assertion that “The origin of
Hinduism . . . is the Aryan Invasion Theory.” See P.
Opp’n to D. MSJ at 5; see also P. MSJ at 17 (“The origins of all other religions included in the Framework
are explained from the perspective of the believer . . . . Only for the origin of Hinduism does the
Framework use a discredited theory.”). It takes an
expert opinion, not relevant to this Court’s inquiry, to
make it so. See P. MSJ at 15 (citing Joshi Report at
4); Alvarado, 94 F.3d at 1232 (reasonable observer
not an expert). As to Hinduism’s origin, the Frame-

49a
work actually discusses archeological finds from the
earlier Harappan civilization (about 2600 to 1900
BCE), as containing artifacts that “show features that
are all present in modern Hinduism, such as a male
figure that resembles the Hindu God Shiva in a meditating posture, as well as small clay figures in the
posture of the traditional Hindu greeting namaste.”
See Framework at 243.
Having set aside the unfounded contention that the
Framework teaches the Aryan Invasion as the origin
of Hinduism, what is left is the language itself about
migration and language. It is not clear whether
Plaintiffs are disputing that in the Vedic period, people who spoke Indic languages entered South Asia.
See P. Reply at 7 (“The Framework Reference to ‘Indic speakers’ . . . is synonymous with the . . . discredited Aryan Invasion Theory.”). Even if that is their
contention, the Framework alerts students to a competing historical theory. See id. at 244 (“Another
point of view suggests . . .”).16 The Court is no author16 In fact, in a recently-adopted textbook submitted as an exhibit in connection with an earlier motion, the Aryan migration
is treated thusly: “According to many historians, around 1500
B.C, waves of new people began crossing the Hindu Kush into
India. The migrants were a collection of tribes called Aryans,
meaning ‘noble ones.’ They belonged to the Indo-European people who had populated central Asia. (Some scholars have begun
to dispute this theory, however. They believe that the Aryans
were descendants of earlier Indus civilizations and there was no
invasion or migration at all.).” See Prouty Decl. Ex. A (dkt. 1832) at 148.

One note about the textbook excerpts submitted in this case.
As discussed above, Plaintiffs’ complaint does not challenge the
recently-adopted textbooks or the 2017 instructional materials
adoption process of November 2017. See generally Compl. And
the Court recognizes that a different regulatory process governs
the instructional materials adoption process than the curriculum framework adoptions. See 5 C.C.R. §§ 9511–26. However,

50a
ity on ancient Indian history and in no position to declare one version true and the other false. This language deals with history—contested history, but history all the same. Whether or not there was an influx
of Aryans into South Asia in 1500 BCE is appropriately the subject of a history and social science curriculum, and not actually a positive or negative
statement about Hinduism.
4. Treatment of Women
Plaintiffs also object to the Framework’s description
of Hinduism as contributing to the unequal status of
women. See P. MSJ at 19–20. They assert that it deliberately treats Hinduism “as a contributor to patriarchy while not making the same acknowledgment
for other religions.” Id. at 19. Not so. The Framework
reflects that patriarchy was not unique to ancient India or Hinduism.
The relevant language in the Framework is about
ancient India, not Hinduism. It states, “Although ancient India was a patriarchy, women had a right to
their personal wealth, especially jewelry, gold, and
silvery, but little property rights when compared to
men, akin to other ancient kingdoms and societies.”
Framework at 246. It continues, “They participated
the recently-adopted textbooks are slightly relevant to the
Court’s assessment of the Standards and Framework, as they
demonstrate that someone has determined that those books are
aligned with the Standards and Framework at issue in this case.
On the other hand, excerpts of old instructional materials were
aligned with a different Framework. Thus, the pages attached to
the Nair Declaration (dkt. 215-7), purporting to be assignments
given to the declarant’s daughter by local educators during the
2016–17 school year, and which would not have been aligned
with the 2016 Framework or the 2017 instructional materials
adoption, are essentially irrelevant. They also lack foundation.
The Court therefore sustains Defendants’ objection as to that
evidence. See D. Opp’n to P. MSJ at 17.

51a
in religious ceremonies and festival celebrations,
though not as equals. Hinduism is the only major religion in which God is worshipped in female as well
as male form.” Id. About Judaism, the Framework
states: “Judaism, in its ancient form, was largely a
patriarchy. It was rare for women to own property,
but Jewish law offered women some important rights
and protections.” Id. at 236. About Christianity, it
provides: “Although ancient Christianity was a patriarchy and all the apostles were men, several women
were prominent, especially Mary, mother of Jesus.
Until modern times, Christian women had few property rights and were subordinate to men.” Id. at 270;
see also id. at 240 (about ancient Athens: “women,
foreigners, and slaves were excluded from all political
participation.”); id. at 231 (“Mesopotamia was a patriarchy and men had more power than women.”).
Plaintiffs’ contrary reading of the Framework is
misleading. Compare P. MSJ at 19 (“For Christianity,
the Framework even provides that ‘male clergy, both
Catholic and Protestant,’ generally agreed that ‘men
and women are equal in the sight of God.’ ”) with
Framework at 313 (“In a few radical Protestant sects,
women sometimes became leaders in church organizations and propagation. However, male clergy, both
Catholic and Protestant, generally agreed that even
though men and women are equal in the sight of God,
women should bow to the will of their fathers and
husbands in religious and intellectual matters.”).
While the Framework does not include Plaintiffs’ desired “interpretations of the Bible that would give
women a status inferior to men,” see P. MSJ at 19, it
certainly blames Christian leaders for some historical
gender inequality, see Framework at 313.

52a
5. Additional Negative and Positive Treatment of
Religion
Beyond the language already discussed herein, the
Framework frequently acknowledges negative aspects of other religions’ histories. For example, the
Framework states that Muslim leaders conquered
new land and forced some non-Muslims to convert.
Id. at 278. It mentions that “Christians and Muslims
enslaved captives who did not belong to their own religions.” Id. at 310. It notes “extensive” criticism of
the Catholic Church over the selling of indulgences
and corruption by the clergy. Id. at 312. In explains
that “Protestantism added more fuel to the already
growing religious persecution in Spain, which had
expelled the Jews in 1492. Between 1500 and 1614,
Spain expelled all Muslims and persecuted converts
and dissenters in the Spanish Inquisition.” Id. It
notes that Galileo Galilei “was charged with heresy
by the Catholic Church for his public support of Copernicus’ theory that the earth revolved around the
sun” and “spent his final days under house arrest.”
Id. at 316.
The Framework also uses positive language about
Hinduism and ancient India. It describes the Harappan civilization (about 2600 to 1900 BCE) as “well
planned” and “[a] flourishing urban civilization.” Id.
at 243. It describes the Vedic period as “build[ing] up
a rich body of spiritual and moral teachings that form
a key foundation of Hinduism as it is practiced today.” Id. at 244. It describes “the central practices of
Hinduism today” as including “above all, a profound
acceptance of religious diversity.” Id. at 245. And it
ends by discussing the Ramayana as an “epic work.”
Id. at 246. It contains positive language about the
Gupta Dynasty (280 to 550 CE), as “a rich period of
religious, socioeconomic, educational, literary, and

53a
scientific development,” and discusses the “[e]nduring
contributions from the cultures of which is now modern India and other parts of South Asia.” Id. at 283.
It addresses the Chola Empire, which was “associated
with significant artistic achievement,” and states that
“Hinduism continued to evolve with the Bhakti
movement,” which “emphasized” “social and religious
equality and a personal expression of devotion to
God.” Id. at 284.
6. The SAFG
Finally, Plaintiffs vociferously object to the role of
the SAFG, the group of academics that they claim
Tom Adams secretly recruited to provide anti-Hindu
input on the Framework. See P. MSJ at 9–11
(“. . . presented the feedback to the public without acknowledging that Adams handpicked the professors . . . to obtain the viewpoint he sought.”); P. Opp’n
to D. MSJ at 5–6 (same); P. Reply at 3 (“Defendants
gave special consideration to the [SAFG] solicited by
the [CDE] officials”).17 Although the SAFG participated “outside of the expert appointment process,” see
P. MSJ at 9; see also Compl. ¶¶ 48–51 (alleging that
Defendants “chose to ignore completely the process
for consulting experts contemplated by the Department of Education’s regulations”), Tom Adams stated
that it was undecided “whether experts are needed,”
see Kumar Decl. Ex. E at PLS00153, a CFCC with
Content Review Experts had already been formed in
2008, see McDonald Decl. ¶¶ 2–5; 5 C.C.R. § 9511,
and it is not clear that the regulations would have
permitted a second CFCC. As previously noted, the
17 Plaintiffs also complain that two members of the SAFG
were actually authors of the Framework. See P. Reply at 6. But
this fact makes it even less objectionable for the CDE to consult
them.

54a
email Plaintiffs rely on to establish that Tom Adams
was directing the SAFG contributions is hearsay. See
P. MSJ at 9–10. But assuming that the CDE indeed
solicited the SAFG’s input, there is no evidence that
it did so pursuant to official state policy, see
Dougherty v. City of Covina, 654 F.3d 892, 900 (9th
Cir. 2011), or that a reasonable observer would be
cognizant of the academics’ internal correspondence,
see Viswewaran Decl. ¶ 15 (dkt. 151-2) (third party
communications have always been private, and no
one else had access to them); see also McCreary, 545
U.S. at 863, 125 S.Ct. 2722 (reasonable observer not
aware of hidden religious motive).
Moreover, it is not at all clear that the nefarious
gloss that Plaintiffs urge on the SAFG’s correspondence is borne out. See Corley Order (dkt. 171) at 12–
13 (description of correspondence as partisan and anti-Hindu “is contradicted by the context and overall
content of the messages.”). As one example of this,
Plaintiffs highlight a single line in an email from an
SAFG member, stating “readers of our report can imagine that it is meant to undermine the legitimacy of
Hinduism as a religion (and Hinduism uniquely
among religions, at that.).” See P. Opp’n to D. MSJ at
14 (quoting Katon Decl. Ex. D at KEN00047). A review of the complete document reveals that the author of that line was objecting to mention of an academic debate that the author felt was too complicated
and subject to misinterpretation. See Katon Decl. at
KEN00047. The author continued, “Our critics should
not be able to say that we show animus against Hinduism, or against religion generally and so dismiss
our suggestions as partisan. We should acknowledge
that Hinduism will of course play a major role in
textbooks on Indian civilization, but not at the expense of acknowledging other religions and the mul-

55a
tiplicity within Hinduism itself.” Id. The email as a
whole does not suggest that the author is seeking to
undermine the legitimacy of Hinduism, and the single line that Plaintiffs quote is misleading.
As a second example of SAFG correspondence taken
out of context, Plaintiffs quote an email that they assert shows that SAFG members “understood that
they were to use ‘smoke and mirrors’ to manipulate
the Framework adoption process.” See P. MSJ at 23
(quoting Katon Decl. at KEN00016); P. Opp’n to D.
MSJ at 14 (same). But that email simply stated that
the group was not going to respond directly to a particular Hindu organization (Hindu American Foundation),
. . . but we need to describe what we take to be
the social/scientific/scholarly current consensus
on these issues, and then state whether we think
the framework is consistent with that scholarly
consensus. So that is our mission: to clearly state
what is accepted scholarship, and if there is no
legitimate debate on an issue, to state this unambiguously.
See Katon Decl. at KEN00016. Far from revealing
that the author/group intended to surreptitiously insert into the curriculum either false or anti-Hindu
materials, the email shows that the author/group’s
stated intention was to make the Framework more
accurate.
Equally important, the SAFG made their positions
known via public comment, which Defendants made
available for public review. See McDonald Decl. ¶¶ 9,
11. Although Plaintiffs object to the CDE’s failure to
disclose Adams’s role, they do acknowledge CDE’s
open use of the SAFG recommendations. See P. MSJ
at 10 (“Although Adams’ recruitment of the hand-

56a
picked SAFG was never made public, McTygue, who
led the drafting of the Framework, did state publicly
for the first time at the final History-Social Science
Subcommittee meeting in March 24, 2016 that the
subcommittee had been receiving reports from the
SAFG.”). Moreover, the CDE rejected a number of the
SAFG’s recommendations. Of the six examples the
Complaint identifies of the SAFG’s allegedly antiHindu recommendations, the Court has already noted
that “[t]he SBE actually rejected four.” See Order re
MTD at 19 (dismissing Equal Protection claim based
on Framework Adoption process). In addition, Defendants submit evidence that there was significant
support for SAFG’s positions.18
18 See, e.g., D. MSJ at 16–18 (citing, among other things, Appendix (dkt. 165) Ex. 22 (letter signed by 153 individuals, mostly
American professors, expressing “support for the recommendations of the South Asia Faculty Group,” including recommendations concerned with “sanitization of the connection of caste to
Hinduism”); Appendix Ex. 23 (letter submitted by Dalit Bahujan
Faculty Group, 21 scholars in United States and India, that
“broadly supported SAFG’s proposed edits,” and asserted “consensus among historians, that a society divided into caste . . .
was advocated as the ideal in texts as old as Rig Vega . . .”); Appendix Ex. 24 (submission from South Asian Histories for All,
stating among other things that “Caste as determined by birth
has been religiously sanctioned and a lived reality in India for
thousands of years. Erasing the religious underpinnings of caste
also negates the religious dissent that produced the Buddhist,
Ravidassia, and Sikh religions.”); Appendix Ex. 25 (letter from
Council on American-Islamic Relations urging SBE to accept the
SAFG’s edits and expressing concern about proposed edits “that
seek to deny the reality of the [caste] system”); Appendix Ex. 27
(letter from Society for Advancing the History of South Asia,
affiliate organization of the American Historical Association,
supporting the “SAFG mission of including mention of caste . . .
as concept[ ] for understanding the history of society and culture
in ancient India, and the history of Hinduism itself.”) ). The
Court also understands, of course, that Plaintiffs and others op-

57a
As to edits generally, the Court previously rejected
Plaintiffs’ arguments that Defendants favored other
religions over Hinduism in accepting and rejecting
feedback on the Framework. See id. at 20–21 (“The
problem here is not process. The SBE invited public
comments on the draft Framework, but it is not obligated to accept every suggested edit—nor could it,
when faced with conflicting input. The public school
system could not function if every rejected public
comment on the content of the curriculum carried potential liability . . . . Plaintiffs have not pled and cannot adequately plead that the Defendants treated
Hinduism unfavorably as compared to other religions
in the Framework adoption process.”). It now rejects
Plaintiffs’ strained argument that a reasonable observer would recognize that Defendants’ handling of
edits selectively violated California law. See P. MSJ
at 21–23. The reasonable observer is not a legal expert, nor, given these facts, would he or she reach the
conclusion Plaintiffs urge. The CDE received over
10,000 emailed comments, and thousands of additional printed comments in just one phase of the
Framework adoption process. See McDonald Decl.
¶ 10. It is no wonder that the “Supreme Court has
warned that courts should not be in the position of
analyzing the minutia of textbook edits and curriculum decisions.” See Noonan, 600 F.Supp.2d at 1121.
C. Primary Effect
A reasonable observer would not view the Standards and Framework as primarily denigrating Hinduism.

posed SAFG’s positions. See, e.g., P. Opp’n to D. MSJ at 22 n.24
(quoting from Hindu American Foundation and Hindu Education Foundation press releases).

58a
1. Disapproval of Religion
As discussed above, many of the examples Plaintiffs
give of disparagement are not that. The Framework
discusses other religions’ development as a result of
human influence; it includes mitigating language
about caste, stating that there was a system of social
classes in all early civilizations; it recognizes a competing theory to the theory that Indic speakers entered South Asia in the Vedic period; and it states
that patriarchy was not unique to ancient India. An
objective, reasonable observer would find much of the
challenged material entirely unobjectionable. See Alvarado, 94 F.3d at 1232 (“reasonable observer is not
an expert on esoteric [matters] . . . .”); Books v.
Elkhart County, Indiana, 401 F.3d 857, 867 (7th Cir.
2005) (effect “is evaluated against an objective, reasonable person standard, not from the standpoint of
the hypersensitive or easily offended.”).
But even if there is some evidence by which a reasonable person could infer a disapproval of Hindu religious beliefs—an excessive discussion of caste, for
example, or a failure to be fully transparent about coordination with SAFG—that is not enough to conclude that the primary message of the Standards and
Framework is disparagement. See C.F. v. Capistrano
Unified Sch. Dist., 654 F.3d 975, 985–86 (9th Cir.
2011) (“Even statements exhibiting some hostility to
religion do not violate the Establishment Clause if
the government conduct at issue,” in addition to
meeting the other two Lemon prongs, “does not have
as its principal or primary effect inhibiting religion.”).
Two cases about state disapproval of religion illustrate this point.
In Vernon, 27 F.3d at 1388–89, the City of Los Angeles conducted an investigation into whether an Assistant Chief of Police’s religious beliefs were “im-

59a
properly shaping the operations and policies” of the
police department. The officer sued the City, alleging,
among other things, an Establishment Clause violation. Id. at 1390. Although the district court held that
there was “no evidence in the record from which a
reasonable person could infer any disapproval by the
city,” the circuit observed that the city’s having “expressly included within the scope of its investigation
inquiries concerning ‘consultation with religious elders on issues of public policy’ suggests that the city
disapproved of such consultation,” and that such disapproval could “possibly [be] due to the particular religious beliefs underlying such consultation.” Id. at
1398. The circuit explained, however, that “[n]otwithstanding the fact that one may infer possible city disapproval of Vernon’s religious beliefs from the direction of the investigation, this cannot objectively be
construed as the primary focus or effect of the investigation.” Id. at 1398–99. The primary purpose of the
investigation was to investigate whether the officer
was engaging in improper or illegal conduct, and the
investigation could not “reasonably be construed to
send as its primary message the disapproval of [the
officer’s] religious beliefs.” Id. at 1399. The circuit
noted, too, that there were “prominent disclaimers” in
the course of the investigation about the officer’s entitlement to his personal religious views. Id.
Similarly, in American Family Association v. City
and County of San Francisco, 277 F.3d 1114, 1122
(9th Cir. 2002), where the San Francisco Board of
Supervisors sent a letter and adopted resolutions denouncing discrimination and violence against members of the LGBTQ community, the Ninth Circuit
held that two of the “documents contain certain
statements from which it may be inferred that the
Defendants are hostile towards the religious view

60a
that homosexuality is sinful or immoral.” “Nonetheless,” the circuit continued, “we believe the district
court properly concluded that this was not the principal effect of Defendants’ actions.” Id. It explained:
“The documents, read in context as a whole, are primarily geared toward promoting equality for gays
and discouraging violence against them.” Id. Even
though the two documents “may contain overgeneralizations about the Religious Right,” or “misconstrue the Plaintiffs’ message,” “a reasonable, objective observer would view the primary effect of
these documents as encouraging equal rights for gays
and discouraging hate crimes, and any statements
from which disapproval can be inferred only incidental and ancillary.” Id. at 1122–23.
Here, as in Vernon and American Family, even if a
reasonable observer could infer some disapproval of
historical aspects of Hinduism, the Standards and
Framework by no means primarily communicate disapproval of Hinduism. Just as the primary effect of
the investigation in Vernon was to investigate possible illegal conduct, and the primary effect of the
Board of Supervisors’ actions in American Family
was to encourage equal rights and denounce hate
crimes, the primary effect of the Standards and
Framework is to establish a curriculum on ancient
history and social sciences. See Standards at 0006
(requiring “students not only to acquire core
knowledge in history and social science, but also to
develop the critical thinking skills that historians
and social scientists employ to study the past and its
relationship to the present.”); Framework at 0074
(ensuring “that all California students are prepared
for college, twenty-first century careers, and citizenship.”). In addition, here, as in Vernon, there are disclaimers. The Framework’s Appendix quotes from the

61a
First Amendment, explains that “public schools may
not promote or inhibit religion,” and directs that “religion and religious convictions, as well as nonbelief”
be “treated with respect.” Framework at 0865. And,
as discussed above, the body of the Framework specifically makes positive references to ancient India and
Hinduism, along with negative references to other
civilizations and religions.
While Plaintiffs concede that they must demonstrate that the government’s action sends “primarily
a message of . . . disapproval,” P. Opp’n to D. MSJ at
7 (quoting Vernon, 27 F.3d at 1398), they quote
Brown, 27 F.3d at 1378, for the proposition that the
“concept of a ‘primary’ effect encompasses even nominally ‘secondary’ effects of government action that directly and immediately advance, or disapprove of, religion,” P. Opp’n to D. MSJ at 8. They also cite to
Vasquez v. Los Angeles Cty., 487 F.3d 1246, 1256 (9th
Cir. 2007) (quoting Brown, 27 F.3d at 1378), which
held that “Governmental action has the primary effect of advancing or disapproving religion if it is ‘sufficiently likely to be perceived by adherents of the
controlling denominations as an endorsement, and by
the nonadherents as a disapproval, of their individual
religious choices.’ ” Id. They argue that “[a]pplying
the correct standard,” they would prevail, because “it
is sufficiently likely that a reasonable observer would
perceive” that the Standards and Framework “disapprove of Hinduism.” Id.
But Brown, which this Court relies on extensively,
pre-dates Vernon and American Family. Moreover,
Vasquez actually stated that “The most instructive
cases in our circuit are Vernon and American Family,” 487 F.3d at 1256, and its application of the second
Lemon prong is consistent with those cases, see id. at
1257 (“a ‘reasonable observer’ familiar with the histo-

62a
ry and controversy . . . would not perceive the primary effect of Defendants’ action as one of hostility towards religion.”). Indeed, while Plaintiffs accurately
quote Vasquez, Vasquez inaccurately cites to Brown—
the quoted language from Brown was defining the
word “effect,” not the concept of “primary effect.”
Compare Brown, 27 F.3d at 1378 (“A government
practice has the effect . . . if it is ‘sufficiently likely to
be perceived’ ”) with Vasquez, 487 F.3d at 1256
(“Government action has the primary effect . . . if it is
‘sufficiently likely to be perceived’ ”).
Plaintiffs’ interpretation would read the word “primary” out of the primary effect test and render any
conceivable disapproval a constitutional violation.
That is not the law. Certainly courts cannot ignore
“nominally ‘secondary’ effects of government action
that directly and immediately advance, or disapprove
of, religion.” See Brown, 27 F.3d at 1378. But Plaintiffs must still show that disapproval of Hinduism is
the primary effect of the Standards and Framework,
and they have not done so.
2. The Context of School Curriculums
It was not enough in Vernon and American Family
that there was some disapproval of religion: the context of the government action was essential in assessing the primary effect. Context is also essential to
the Ninth Circuit’s treatment of school curriculum
cases. Courts are to “consider the . . . curriculum as a
whole to determine whether the primary effect is to
endorse or inhibit religion.” Noonan, 600 F.Supp.2d
at 1118 (quoting Grove v. Mead Sch. Dist. No. 354,
753 F.2d 1528, 1540 (9th Cir. 1985) (Canby, J., concurring) (“Objectivity in education need not inhere in
each individual item studied; if that were the requirement, precious little would be left to read.”) ); cf.
Fleischfresser v. Dirs. of Sch. Dist. 200, 15 F.3d 680,

63a
689 (7th Cir. 1994) (courts are to “focus on the entire
series, not simply the passages the parents find offensive because to ‘[f]ocus exclusively on the religious
component of any activity would invariably lead to its
invalidation.’ ”). Disparagement of Hinduism is not
the primary effect of the Standards and Framework
as a whole. A couple of school curriculum cases are
particularly helpful in demonstrating this.
In Grove, 753 F.2d at 1531, parents brought suit
over a school board’s refusal to remove a book called
The Learning Tree from their daughter’s sophomore
English literature curriculum. The parents argued
that The Learning Tree “has a primary effect of inhibiting their religion, fundamentalist Christianity, and
advancing the religion of secular humanism.” Id. at
1534. The Ninth Circuit disagreed, explaining that
while the Establishment Clause prohibits “daily readings from the Bible,” “recitation of the Lord’s Prayer,”
“posting the Ten Commandments in every classroom,” “beginning school assemblies with prayer,”
and including in a meditation course “a ceremony involving offerings to a deity,” the “literary or historic
study of the Bible is not a prohibited religious activity” and “[n]ot all mention of religion is prohibited in
public schools.” Id. Reading The Learning Tree was
“not a ritual” but an exploration of the “expectations
and orientations of Black Americans.” Id. Moreover,
the book “was included in a group of religiously neutral books in a review of English literature, as a
comment on an American subculture.” Id.; see also id.
at 1540 (Canby, J., concurring) (“It is one book, only
tangentially ‘religious,’ thematically grouped with
others in the sophomore literature curriculum.”). Accordingly, the school board did not violate the Establishment Clause.

64a
Likewise, in Brown, 27 F.3d at 1377, parents objected to a district’s use of Impressions, an elementary school teaching aid that consisted of “approximately 10,000 literary selections and suggested classroom activities,” covering “a broad range of North
American cultures and traditions.” Id. The plaintiffs
challenged 32 of the selections, which directed students to discuss witches, create poetic chants, and
pretend that they were witches or sorcerers. Id. They
alleged that the selections promoted the religion of
Wicca and the practice of witchcraft. Id. The Ninth
Circuit explained that “[t]o the extent that the Challenged Selections involve no more than merely reading, discussing or contemplating witches, their behavior, or witchcraft, they fall squarely within the holding of Grove.” Id. at 1380. The circuit also rejected the
plaintiffs’ role-playing arguments, concluding that
this was not “student participation in schoolsponsored religious ritual” but “coincidental resemblance . . . to witchcraft ritual.” Id. at 1380–81. It continued, “As in Grove, the Challenged Selections are
only a very small part of an otherwise clearly nonreligious program. It thus is unlikely that . . . an objective observer would perceive the inclusion of the selections in Impressions as an endorsement of or disapproval of religion.” Id. at 1381. The court reiterated: “The context in which the Challenged Selections
exist is relevant to determining whether children will
have such a perception.” Id. The plaintiffs therefore
failed to meet the second Lemon prong. Id. at 1383.
Much like The Learning Tree was only one book
“included in a group of religiously neutral books in a
review of English literature,” see Grove, 753 F.2d at
1534, and the witchcraft selections were only 32 of
10,000 literary selections, see Brown, 27 F.3d at 1377,
the language Plaintiffs object to in the Standards and

65a
the Framework are only a small part of an expansive
history and social sciences curriculum, ranging from
kindergarten to twelfth grade and from ancient history to economics and principles of American democracy. See Framework at 72–73; see also Noonan, 600
F.Supp.2d at 1119 (challenged materials “are only a
small portion of otherwise clearly nonreligious
texts . . . which are part of a clearly[ ] nonreligious
history-social sciences program.”).
This is not to say that truly derogatory language
accounting for only a small percentage of words in a
larger text would never qualify as a “nominally ‘secondary’ effect[ ] of government action that directly
and immediately advance[d], or disapprove[d] of, religion.” See Brown, 27 F.3d at 1378. The Court holds
only that, as discussed above, the materials Plaintiffs
challenge in this case do not so qualify. Relatedly,
although Plaintiffs object to perceived bias in the
Standards and Framework development process—
particularly in connection with the role of the SAFG,
see P. MSJ at 9–11—that process involved public review, public comment, and public meetings, and the
curriculum that resulted from that process does not
primarily disparage Hinduism. In context, the process does not alone satisfy the second Lemon prong.
Ultimately, “the State of California has determined
that students should study the importance of religion . . . to gain a better understanding of different
cultures and conflicts.” Noonan, 600 F.Supp.2d at
1117; Framework Appendix F at 0864 (“much of history, art, music, literature, and contemporary life are
unintelligible without an understanding of the major
religious ideas and influences that have shaped the
world’s cultures and events.”). “Not all mention of religion is prohibited in public schools.” Grove, 753 F.2d
at 1534; see also Stone v. Graham, 449 U.S. 39, 42,

66a
101 S.Ct. 192, 66 L.Ed.2d 199 (1980) (“the Bible may
constitutionally be used in an appropriate study of
history, civilization, ethics, comparative religion, or
the like”); Sch. Dist. of Abington Twp. v. Schempp,
374 U.S. 203, 225, 83 S.Ct. 1560, 10 L.Ed.2d 844
(1963) (“it might well be said that one’s education is
not complete without a study of . . . the history of religion and its relationship to the advancement of civilization.”). As in Grove and Brown, the challenged
material here is not school-sponsored religious ritual.
See Grove, 753 F.2d at 1534; Brown, 27 F.3d at 138081. It is a discussion of ancient India that includes a
discussion of early Hinduism from an historical perspective. See also Noonan, 600 F.Supp.2d at 1121
(material does not “serve as a religious primer.”).
This is constitutionally permissible, as “[t]he Establishment Clause is not violated when government
teaches about the historical role of religion.” See
Books, 401 F.3d at 868.
Given the substance and context of the challenged
materials, a reasonable observer would not conclude
that the primary effect of the Standards and Framework is the disparagement of Hinduism. A reasonable
observer would conclude that their primary effect is
to establish a curriculum on ancient history and social sciences. Accordingly, Plaintiffs’ challenge fails
the second prong of the Lemon test. Defendants’ actions did not violate the Establishment Clause.
IV. CONCLUSION
For the forgoing reasons, the Court GRANTS Defendants’ Motion for Summary Judgment and DENIES Plaintiffs’ Cross-Motion for Summary Judgment.
IT IS SO ORDERED.

67a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
————
No. 17-00635-CRB
————
CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS, et al.,
Plaintiffs,
v.
TOM TORLAKSON, et al.,
Defendants.
————
Signed 07/13/2017
————
ORDER GRANTING IN PART AND DENYING IN
PART DEFENDANTS’ MOTION TO DISMISS
————
CHARLES R. BREYER, United States District Judge
Plaintiffs are California Parents for the Equalization of Educational Materials (“CAPEEM”), an organization formed to promote an accurate portrayal of
the Hindu religion in California public schools, as
well as several Hindu parents, individually and on
behalf of their school-age children. See generally
Compl. (dkt. 1). They have brought suit against several officials at the California Department of Education and members of the State Board of Education
(collectively, “the State Defendants”),1 as well as four
1 The State Defendants are Tom Torlakson (State Superintendent and Director of Education), Tom Adams (Deputy Superintendent), Stephanie Gregson (Director of the Curriculum

68a
California School Districts,2 alleging discrimination
against Hinduism in the California public school curriculum. Id. The State Defendants move to dismiss.
See generally MTD (dkt. 88). The Court hereby
GRANTS the motion in part, and DENIES it in part.
I.

BACKGROUND

The California State Board of Education (“SBE”)
drafts and oversees the policies implemented by the
California Department of Education (“CDE”). Compl.
¶ 25. The SBE is responsible for approving and overseeing statewide curriculum content, creating the
curriculum framework for kindergarten through
twelfth grade, and adopting instructional materials
for kindergarten through eighth grade. Id.
In 1998, the SBE adopted the History–Social Science Content Standards for California Public Schools,
Kindergarten Through Grade Twelve (“Standards”),
which provide an outline of the topics and content
that California public school students need to acquire
at each grade level. Id. ¶ 27. In 2016, the SBE adopted the 2016 History–Social Science Framework
(“Framework”). Id. ¶ 43. The Framework guides
teachers, administrators, and publishers in the teaching of history and social science, providing an overview of the historical material corresponding to each
of the Standards. Id. ¶ 45. Notably, students do not
read either the Standards or the Framework. See id.
Frameworks) and members of the California State Board of Education: Michael Kirst, Ilene Straus, Sue Burr, Bruce Holaday,
Feliza I. Ortiz–Licon, Patricia Ann Rucker, Nicolasa Sandoval,
Ting L. Sun, and Trish Boyd Williams. Each is sued in his or her
official capacity.
2 The parties have stipulated that each of the School District
Defendants will not file a responsive pleading to the complaint
or oppose Plaintiffs’ claims at this time. See Stipulations (dkts.
91, 97, 99); Orders granting stipulations (dkts. 90, 96, 98).

69a
But textbooks adopted by school districts across California must be aligned with both. Id. ¶ 31.
Plaintiffs allege discrimination against the Hindu
religion—and endorsement of the Abrahamic
faiths3—in the Framework adoption process and in
the content of both the Standards and the Framework. Id. ¶¶ 32–42, 47, 93.
Plaintiffs’ claim of discrimination in the Framework
adoption process is based on the State’s alleged reliance on an anti-Hindu report and proposed edits, secret expert consultation with respect to Hinduism but
not other religions, and disparate treatment in the
State’s handling of edits proposed by various religious
groups. Compl. ¶¶ 48–60, 61–74, 75–90. The Framework adoption process included several public hearings, opportunities for public comments, and consideration of proposed edits submitted in writing by organizations, academics, and members of the public.
Id. ¶ 43. During the public comment portion of the
adoption process, a group of history professors under
the name “South Asia Faculty Group” (SAFG) submitted a report on the draft Framework, which included recommended edits. Id. ¶ 48. Plaintiffs allege
that members of the SAFG have anti-Hindu bias and
that SAFG’s report was “patently anti-Hindu,” as it
recommended edits that were disparaging to Hindus
and Hinduism. Id. ¶¶ 52–60, 80–83. Plaintiffs further
claim that the SBE gave “exalted treatment” to the
SAFG report. Id. ¶ 73.
Plaintiffs also allege discrimination against Hindus
in the content of the Standards. Id. ¶¶ 32–42. They
claim, among other things, that unlike its treatment
of other religions, the Standards do not describe Hin-

3

The Abrahamic faiths are Judaism, Christianity, and Islam.

70a
duism as virtuous, and make no mention of Hinduism’s divine origins and central figures. Id.
Finally, Plaintiffs allege discrimination in the content of the Framework. Id. ¶ 93. This claim is based
on the Framework “unfairly attribut[ing] the caste
system to Hinduism” by teaching that it “was a social
and cultural structure as well as a religious belief.”
Id. ¶ 99 (emphasis added). Plaintiffs do not argue
that this statement is necessarily false—rather, they
claim that it is a subject of scholarly debate, and assert that “irrespective of the accuracy of the language, it is certainly derogatory and inconsistent
with . . . the treatment of other religions in the
Framework.” Id. ¶ 82; see also id. ¶ 102 (alleging that
the Framework “describes Hinduism as a negative
influence on then-existing societal norms while describing other religions as a positive influence on
negative aspects of society”). Plaintiffs further allege
that the Framework depicts Hinduism as a mere social construct, “strip[ping] the Hindu belief system of
any divine origins,” while “endorsing Old and New
Testament religious doctrine [by] depicting biblical
stories as history.” Id. ¶¶ 95, 104.
Plaintiffs brought suit in this Court in February
2017, alleging pursuant to 42 U.S.C. § 1983 (1) denial
of substantive Due Process by interference with the
liberty interest of parents to direct the education of
their children; (2) violation of the Establishment
Clause of the First Amendment; (3) violation of the
Free Exercise Clause of the First Amendment; and
(4) violation of the Equal Protection Clause of the
Fourteenth Amendment. See generally Compl. Plaintiffs seek declaratory and injunctive relief. See id.
State Defendants move to dismiss all claims pursuant to Federal Rule of Civil Procedure 12(b)(6). MTD.
Plaintiffs oppose the motion, Opp’n (dkt. 100), and

71a
the State Defendants replied in support of their motion, Reply (dkt. 109). Defendants also requested that
the Court take judicial notice of the complete text of
the Standards and Framework, RJN (dkts. 88–1,
110), and Plaintiffs agree that the Court may do so.4
Response to RJN (dkt. 100–4). The Court held a motion hearing on June 16, 2017. See Minutes (dkt.
116).
II. LEGAL STANDARD
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6) asserts that the complaint fails to
state a claim upon which relief may be granted. Dismissal may be based on either “the lack of a cognizable legal theory or the absence of sufficient facts alleged under a cognizable legal theory.” Balistreri v.
Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir.
1990). For purposes of evaluating a motion to dismiss, a court “must presume all factual allegations of
the complaint to be true and draw all reasonable inferences in favor of the nonmoving party.” Usher v.
City of L.A., 828 F.2d 556, 561 (9th Cir. 1987). A
complaint must plead “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570, 127 S.Ct. 1955, 167
L.Ed.2d 929 (2007). A claim is plausible “when the
plaintiff pleads factual content that allows the court
to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S.Ct. 1937, 173 L.Ed.2d 868
(2009). “Threadbare recitals of the elements of a
4 Courts may take judicial notice of undisputed matters of
public record. See Lee v. City of Los Angeles, 250 F.3d 668, 690
(9th Cir. 2001). Courts may also consider documents incorporated by reference in the complaint. See Coto Settlement v. Eisenberg, 593 F.3d 1031, 1038 (9th Cir. 2010). The Court takes
judicial notice of the Standards and Framework.

72a
cause of action, supported by mere conclusory statements, do not suffice.” Id.
III. DISCUSSION
The State Defendant have filed a motion to dismiss
each of the four constitutional claims in the complaint for failure to state a claim. As discussed below,
the Court grants the motion to dismiss with prejudice
as to (A) the substantive due process claim, and (B)
the Free Exercise claim. The Court denies the motion
as to (C) the Establishment Clause claim. Finally, the
Court grants the motion to dismiss with prejudice as
to (D) the Equal Protection claim.
A. Substantive due process claim
Plaintiffs claim that the Standards and Framework
violate their substantive due process right under the
Fourteenth Amendment by “interfering unreasonably
with the liberty interests of parents to direct the upbringing and education of their children[.]” Compl.
¶ 152. At the hearing, Plaintiffs admitted that their
claims fit most squarely under the Equal Protection
and Establishment Clauses, not substantive due process, which they included “as a catch-all” to preserve
the claim.
State Defendants correctly argue that the Ninth
Circuit foreclosed the substantive due process claim
in Fields v. Palmdale School District, 427 F.3d 1197
(9th Cir. 2005), amended by 447 F.3d 1187 (9th Cir.
2006). See MTD at 7. The court held in affirming
dismissal of a substantive due process claim that “the
constitution does not vest parents with the authority
to interfere with a public school’s decision as to how it
will provide information to its students or what information it will provide.” Fields at 1206. Parents’
substantive due process right to direct the education
of their children allows them to choose whether to

73a
send their children to public or private school, but
does not allow them to “dictate the curriculum” in
public schools. Fields at 1205–06.5
Plaintiffs argue that the holding in Fields is narrow, only applying to sex education in public schools.
See Opp’n at 24. Plaintiffs are incorrect. See Fields,
427 F.3d at 1206 (“there is no constitutional reason to
distinguish [concerns regarding sex education] from
any of the countless moral, religious, or philosophical
objections that parents might have to other decisions
of the School District.”). In the amended Fields opinion, the court made clear that “the central holding of
[its] opinion” is that parents “do not have a fundamental due process right generally to direct how a
public school teaches their child” or “to restrict the
flow of information in the public schools.” Fields, 447
F.3d at 1190 (citations omitted). The holding in Fields
therefore applies to school curricula generally, not
simply curricula regarding sex education.
Plaintiffs also argue that the amended opinion in
Fields allows a claim where the State’s violation of
the First Amendment infringes the due process right
of plaintiff parents.6 See Opp’n at 25. In fact, the
5 Other circuits are in accord. See, e.g., Brown v. Hot, Sexy &
Safer Prods., Inc., 68 F.3d 525, 533 (1st Cir. 1995) (parents have
no constitutional right to “dictate the curriculum” in a public
school); Blau v. Fort Thomas Pub. Sch. Dist., 401 F.3d 381, 395
(6th Cir. 2005) (parents “do not have a fundamental right generally to direct how a public school teaches their child.”); Leebaert v. Harrington, 332 F.3d 134, 141 (2d Cir. 2003) (same)
6 If Plaintiffs are suggesting a “hybrid-rights” claim here, the
argument fails. In Smith, the Supreme Court coined the phrase
“hybrid-rights” in suggesting that government action could face
heightened scrutiny if it involved “the Free Exercise Clause in
conjunction with other constitutional protections.” Employment
Div., Dep’t of Human Res. v. Smith, 494 U.S. 872, 881, 110 S.Ct.
1595, 108 L.Ed.2d 876 (1990). Here there is no substantive due

74a
court noted that because the parties made no First
Amendment arguments on appeal, the “holding does
not . . . consider the limitations that the First
Amendment imposes upon the actions of all government agencies, including school boards.” Fields, 447
F.3d at 1189–90. That statement simply acknowledged that a parent’s inability to mount a substantive
due process challenge to public school curricula does
not preclude a separate challenge on First Amendment grounds. Indeed, Plaintiffs have raised two such
First Amendment claims here.
Because binding Ninth Circuit law establishes that
Plaintiffs do not have the substantive due process
right they claim here, the Court GRANTS the motion
to dismiss this claim, with prejudice.
B. Free Exercise claim
Plaintiffs claim that the Standards and Framework
violate the Free Exercise Clause because they are derogatory towards Hinduism, and students must learn
this derogatory depiction. Compl. ¶¶ 147–49. Defendants argue that Plaintiffs fail to state a claim because
Plaintiffs have not pled and cannot plead a burden on
any religious practice, which is a threshold requirement for a Free Exercise claim. MTD at 8. At the
hearing, Plaintiffs admitted that their claims fit most
squarely under the Equal Protection and Establishment Clauses, not the Free Exercise Clause, which
they included “as a catch-all” to preserve the claim.
The Free Exercise Clause of the First Amendment
bars laws “prohibiting the free exercise [of religion.]”
U.S. Const. amend. I. Courts traditionally analyzed
Free exercise claims under the balancing test established in Sherbert v. Verner, 374 U.S. 398, 402–03, 83
process right to challenge the curriculum in public schools, thus
there is no hybrid-rights claim.

75a
S.Ct. 1790, 10 L.Ed.2d 965 (1963) (holding that government action which substantially burdens a religious practice must be both justified by a substantial
government interest and narrowly tailored to serve
that interest). The Court modified the Sherbert test
in Employment Division, Oregon Dep’t of Human Resources v. Smith, holding that the test did not apply
in challenges to laws that are neutral and generally
applicable. 494 U.S. 872, 885, 110 S.Ct. 1595, 108
L.Ed.2d 876 (1990), superseded on other grounds by
statute. Such laws face rational basis review rather
than strict scrutiny. Id. at 879, 110 S.Ct. 1595.
“Under the Free Exercise Clause, a law that burdens religious practice need not be justified by a compelling governmental interest if it is neutral and of
general applicability.” Church of Lukumi Babalu Aye
v. City of Hialeah, 508 U.S. 520, 523, 113 S.Ct. 2217,
124 L.Ed.2d 472 (1993) (citing Smith, 494 U.S. 872,
110 S.Ct. 1595) (emphasis added). Smith did not remove the preliminary requirement that there be a
burden on some religious practice. See id.; accord
Parker v. Hurley, 514 F.3d 87, 99 (1st Cir. 2008)
(Smith “did not alter the standard constitutional
threshold question” of “whether the plaintiff’s Free
Exercise is interfered with at all.”).
The Ninth Circuit has explicitly rejected the argument that after Smith, plaintiffs are not required to
demonstrate a substantial burden on their exercise of
religion. See Am. Family Ass’n, Inc. v. City & Cty. of
S.F., 277 F.3d 1114, 1123–24 (9th Cir. 2002). In
American Family Association, the plaintiff religious
group sponsored an advertising campaign espousing
the view that homosexuality is a sin, and brought
suit when San Francisco adopted a resolution formally denouncing the campaign. Id. at 1118–19. The
group alleged that the city’s disapproval of its mes-

76a
sage had a chilling effect on its free exercise of religion. Id. at 1124. The Ninth Circuit affirmed dismissal for failure to state a claim because “a subjective
chilling effect on free exercise rights is not sufficient
to constitute a substantial burden” and the “complaint d[id] not otherwise allege any specific religious
conduct that was affected by the Defendants’ actions.”
Id.
Plaintiffs claim that the Standards and Framework
violate the Free Exercise Clause because they are
neither neutral nor generally applicable (and, presumably, do not withstand strict scrutiny). See
Compl. ¶ 147. However, Plaintiffs fail to satisfy the
threshold requirement—pleading a burden on their
Free Exercise. Plaintiffs acknowledge that a Free Exercise claim must be based on regulatory or compulsory government action, Opp’n at 23, but they do not
“allege any specific religious conduct that was affected by the Defendants’ actions,” see American Family,
277 F.3d at 1124. Plaintiffs acknowledged at the
hearing that they had not pled a burden on religious
exercise “in the sense of worship.” Rather, Plaintiffs
argue that public school students are required to
learn the information described in the Standards and
Framework, and that compelling student Plaintiffs to
study and be tested on material that is “not neutral
on religion and conflicts with their fundamental religious beliefs” violates the Free Exercise Clause.
Opp’n at 23–24. But the complaint does not allege
that students ever read or even see the Framework.
See Compl. ¶ 45 (teachers and textbook developers,
not students, are not the Framework’s primary audience). Nor are there allegations that student Plaintiffs are prevented from practicing their faith, or that
parent Plaintiffs are in any way barred from instructing their children on religion at home.

77a
At its core, Plaintiffs’ Free Exercise argument
seems to be that the public school curriculum conflicts with their religious beliefs. The Ninth Circuit
has held that this alone does not violate the Free Exercise Clause. See American Family, 277 F.3d at
1124; Grove v. Mead Sch. Dist., 753 F.2d 1528, 1534
(9th Cir. 1985)7 (affirming summary judgment on a
Free Exercise claim based on a Plaintiff’s objection to
an assigned book that offended her religion); accord
Parker, 514 F.3d at 99 (affirming dismissal of a Free
Exercise claim against a school district, finding no
burden on religious exercise when students read a
book plaintiffs found religiously offensive). The Ninth
Circuit noted that “distinctions must be drawn between those governmental actions that actually interfere with the exercise of religion, and those that
merely require or result in exposure to attitudes and
outlooks at odds with perspective prompted by religion.” Grove, 753 F.2d at 1543 (Canby, J., concurring). “[G]overnmental actions that merely offend . . .
religious beliefs do not on that account violate free
exercise,” and an “actual burden on the profession or
exercise of religion is required.” Id.
Plaintiffs have not and cannot demonstrate a substantial burden on their religious exercise as required.8 The Court hereby GRANTS the motion to
dismiss this claim with prejudice.
7 Plaintiffs argue that the balancing test described in Grove is
no longer good law following Smith, 494 U.S. 872, 110 S.Ct.
1595, see Opp’n at 22, but Grove’s key holding addresses the
threshold question of whether there is any burden on the exercise of religion, which Smith did not change.
8 Plaintiffs filed a Statement of Recent Decision (dkt. 118) to
notify the Court of the Supreme Court’s recent decision in Trinity Lutheran Church of Columbia, Inc. v. Comer, 198 U.S. 551,
137 S.Ct. 2012, 198 L.Ed.2d 551 (2017). In that case, a church-

78a
C. Establishment Clause claim
Plaintiffs allege that the Standards and Framework
violate the Establishment Clause because they denigrate Hinduism and endorse Abrahamic faiths.
Compl. ¶ 144.
“The clearest command of the Establishment
Clause is that one religious denomination cannot be
officially preferred over another.” Larson v. Valente,
456 U.S. 228, 244, 102 S.Ct. 1673, 72 L.Ed.2d 33
(1982). Governmental action is permissible under the
Establishment Clause if (1) it has a secular purpose,
(2) the “principle or primary effect” neither advances
nor inhibits religion, and (3) it does not foster “excessive state entanglement” with religion. Lemon v.
Kurtzman, 403 U.S. 602, 612–13, 91 S.Ct. 2105, 29
L.Ed.2d 745 (1971). If any of the three prongs of this
“Lemon test” is not met, the government action violates the First Amendment. Edwards v. Aguillard,
482 U.S. 578, 583, 107 S.Ct. 2573, 96 L.Ed.2d 510
(1987).
The Supreme Court “has long recognized that local
school boards have broad discretion in the management of school affairs.” Bd. of Educ. v. Pico, 457 U.S.
853, 863, 102 S.Ct. 2799, 73 L.Ed.2d 435 (1982). “Judicial interposition in the operation of the public
school system of the Nation raises problems requiring
care and restraint,” and courts should only intervene
if basic constitutional values are “directly and sharpoperated preschool brought a Free Exercise claim because it was
disqualified from a public benefit solely because of its religious
character. Id. at 2016–17. The Supreme Court rejected arguments that there was no burden on the plaintiff’s religious exercise, holding that the penalty of disqualification constitutes a
burden. Id. at 2021–23. There is no such penalty in this case.
The Supreme Court’s holding does not change this Court’s analysis.

79a
ly implicate[d].” Epperson v. Arkansas, 393 U.S. 97,
104, 89 S.Ct. 266, 21 L.Ed.2d 228 (1968). Balanced
against this call for restraint is the Supreme Court’s
instruction that courts be “particularly vigilant in
monitoring compliance with the Establishment
Clause in elementary and secondary schools.” Edwards, 482 U.S. at 583–84, 107 S.Ct. 2573. This is because younger children are more vulnerable to the
“subtle coercive pressure in the elementary and secondary public schools.” Lee v. Weisman, 505 U.S. 577,
592, 112 S.Ct. 2649, 120 L.Ed.2d 467 (1992); Edwards, 482 U.S. at 584, 107 S.Ct. 2573 (stating that
the sources of this coercive power are “mandatory attendance, . . . students’ emulation of teachers as role
models, and the children’s susceptibility to peer pressure”).
The Court evaluates each prong of the Lemon test
with this balance in mind.
1. Lemon Prongs 1 and 3: secular purpose and excessive entanglement
“The purpose prong of the Lemon test asks whether
[the] government’s actual purpose is to endorse or
disapprove of religion.” Lynch v. Donnelly, 465 U.S.
668, 690, 104 S.Ct. 1355, 79 L.Ed.2d 604 (1984)
(O’Connor, J., concurring). “A reviewing court must
be ‘reluctant to attribute unconstitutional motives’ to
government actors in the face of a plausible secular
purpose.” Kreisner v. City of San Diego, 1 F.3d 775,
782 (9th Cir. 1993) (quoting Mueller v. Allen, 463 U.S.
388, 394–95, 103 S.Ct. 3062, 77 L.Ed.2d 721 (1983)).
The Supreme Court has long acknowledged that the
“study of the Bible or of religion [for its literary and
historic qualities], when presented objectively as part
of a secular program of education,” is consistent with
the First Amendment. Sch. Dist. of Abington Twp. v.

80a
Schempp, 374 U.S. 203, 225, 83 S.Ct. 1560, 10
L.Ed.2d 844 (1963).
Plaintiffs allege that the Standards and Framework
endorse the Abrahamic faiths by requiring the teaching of biblical stories as history, Compl. ¶¶ 33, 42,
107, and that “[t]here can be no secular purpose to
teaching ahistorical events from scripture as history,
which violates the first prong” of the Lemon test,
Opp’n at 20. But Plaintiff’s claim of a non-secular
purpose is implausible, because the text does not
support Plaintiffs’ allegation that the Standards and
Framework teach biblical stories as history. See
Shwarz v. United States, 234 F.3d 428, 435 (9th Cir.
2000) (the court need not accept as true allegations
contradicted by judicially noticeable facts). For example, Plaintiffs argue that the Standards “describe the
Exodus as an historical event,” and that the Framework “assigns dates to Exodus and the characters
from the Old Testament, ensuring they are considered actual history.” Id. The curriculum does not
teach the parting of the Red Sea as fact. Rather, it
acknowledges the “movement [of Hebrew peoples] to
and from Egypt,” and notes the “significance to Jewish law and belief” of the Exodus story. See Standards
(dkt. 88–3) at 11. The Standards further direct that
students be able to “[e]xplain the significance of” figures described in the Old Testament “in the development of the Jewish religion.” Id. at 11. Explaining the
significance of these figures is not equivalent to
“teach[ing] religious mythology as history” as Plaintiffs allege. See Compl. ¶ 41. The curriculum teaches
the development of Judaism, not the historical accuracy of biblical stories.
Similarly, the Standards and Framework discuss
the historical origins of Christianity, including the
life and following of Jesus, without endorsing the

81a
Christian belief that Jesus is a divine figure. See
Framework (dkt. 88–4) at 74; Standards at 13. Plaintiffs complain that the Framework teaches that Mary
was the mother of Jesus “as though it were a historical fact,” Compl. ¶ 109. But the Framework makes no
reference to the Christian belief in the immaculate
conception; it merely states that “[a]lthough ancient
Christianity was a patriarchy and all the apostles
were men, several women were prominent, especially
Mary, mother of Jesus.” Framework at 74. This is not
a plausible “endorse[ment of] Christian religious doctrine” as Plaintiffs allege. See Compl. ¶ 109.
Nothing before the Court suggests that the State
had anything other than a secular purpose—teaching
the history of ancient civilizations—in enacting the
challenged curriculum. The portions of the text that
Plaintiffs cite do not plausibly support any inference
of a non-secular purpose, as the Standards and
Framework do not teach scripture as fact. See
Twombly, 550 U.S. at 570, 127 S.Ct. 1955 (allegations
in the complaint must be plausible to survive a motion to dismiss). Plaintiffs have not adequately pled a
violation of the first prong of the Lemon test.
The third prong of the Lemon test prohibits excessive entanglement with religion. Lemon, 403 U.S. at
612–13, 91 S.Ct. 2105. “Cases in which the Supreme
Court has found excessive . . . entanglement often involve state aid to organizations or groups affiliated
with religious sects, such as parochial schools.”
Cammack v. Waihee, 932 F.2d 765, 781 (9th Cir.
1991) (citing cases). For this prong, “the questions are
whether the involvement is excessive, and whether it
is a continuing one calling for official and continuing
surveillance leading to an impermissible degree of entanglement.” Walz v. Tax Com. of N.Y., 397 U.S. 664,
675, 90 S.Ct. 1409, 25 L.Ed.2d 697 (1970).

82a
The Ninth Circuit held in Brown v. Woodland Joint
Unified School District that the adoption and use of
curriculum materials in public education is insufficient to constitute excessive entanglement. 27 F.3d
1373, 1383–84 (9th Cir. 1994) (noting that no future
monitoring would be necessary). In California Parents for the Equalization of Educational Materials v.
Noonan, the same Plaintiff organization currently before this Court challenged textbooks approved by the
California State Board of Education as denigrating
and discriminatory towards Hinduism.9 600
F.Supp.2d 1088, 1095 (E.D. Cal. 2009). Noonan followed Brown in rejecting CAPEEM’s claim that defendants’ use of the challenged textbooks fostered an
excessive entanglement with religion. 600 F.Supp.2d
at 1122.
Plaintiffs do not and cannot argue that the State’s
involvement with religion is “excessive” and “continu[ous],” such that it “call[s] for official and continuing surveillance leading to an impermissible degree of
entanglement.” See Walz, 397 U.S. at 675, 90 S.Ct.
1409; Brown, 27 F.3d at 1383–84. They instead argue
that the Framework violates the third prong of the
Lemon test “by requiring teachers to make clear that
the caste system was a Hindu religious belief,” as
“[s]uch unqualified language is tantamount to a
seemingly authoritative interpretation of religious
doctrine.” Opp’n at 21. Plaintiffs rely on Commack
Self–Service Kosher Meats, Inc. v. Weiss, 294 F.3d 415
(2d Cir. 2002), a Second Circuit case. Opp’n at 21–22.
Commack found excessive entanglement where a food
labeling statute required New York to take an official
9 The textbooks at issue in that case were required to be
aligned with the same Standards challenged here, and the
Framework that directly preceded the version challenged in this
case. See Noonan, 600 F.Supp.2d at 1097.

83a
position on how the term “kosher” should be defined,
because the state endorsed the interpretation of one
branch of Judaism and rejected that of other branches. 294 F.3d at 425–426.
Unlike in Commack, the challenged curriculum in
this case does not “require the State to take an official position on religious doctrine” or “take sides in a
religious matter” that is subject to ongoing dispute by
different branches within a religion. Id. at 425. The
Framework addresses ancient history, not current
religious principles. It states that although “[t]oday
many Hindus, in India and in the United States, do
not identify themselves as belonging to a caste[,]” the
caste system was a “social and cultural structure as
well as a religious belief” in Ancient India. Compl.
¶ 81. Plaintiffs have not pled that, as in Commack,
there are competing interpretations of religious scripture on this issue, nor that the Framework’s language
requires California to “take sides” in any such debate.
See Commack, 294 F.3d at 425. Plaintiffs merely pled
that “[m]any would argue that caste was not and is
not a Hindu belief.” Compl. ¶ 82. This is a question of
historical fact, not a matter of religious doctrinal interpretation.
The challenged language here is problematic, as
discussed below, but not because it gives an authoritative interpretation of present-day religious doctrine. If there is any entanglement with religion at
all, it is not the “excessive and enduring” kind forbidden by Lemon. See 403 U.S. at 619, 91 S.Ct. 2105.
Plaintiff’s claim of excessive entanglement with religion is not “plausible on its face,” see Twombly, 550
U.S. at 570, 127 S.Ct. 1955, and so Plaintiffs have not
adequately pled a violation of the third prong of the
Lemon test.

84a
2. Lemon Prong 2: Primary effect
The second prong of the Lemon test asks whether
the government action has the principal or primary
effect of advancing or inhibiting religion. Lemon, 403
U.S. at 612, 91 S.Ct. 2105. For challenges to public
school education, courts must consider the primary
effect of the challenged material within the context of
the larger curriculum. Brown, 27 F.3d at 1381.
Courts must analyze the primary effect from the perspective of an observer who is both informed and reasonable. Kreisner, 1 F.3d at 784.
The Ninth Circuit has recognized that when the
challenged government action arises in elementary
school instruction, the “reasonable observer” test
should take into account the more impressionable
and vulnerable nature of school-age children. Brown,
27 F.3d at 1378–79. The court rejected arguments for
a subjective test, reasoning that “[i]f an Establishment Clause violation arose each time a student believed that a school practice either advanced or disapproved of a religion, school curricula would be reduced to the lowest common denominator, permitting
each student to become a ‘curriculum review committee’ unto himself.” Id. Rather, the primary effect
prong of the Lemon test asks whether an “objective
observer in the position of an elementary school student would perceive a message of . . . disapproval [of
religion].” Brown, 27 F.3d at 1379 (emphasis added).
Here, the content Plaintiffs challenge governs the
sixth grade curriculum. Compl. ¶ 29. Thus, the Court
analyzes the second Lemon prong from the perspective of a reasonable sixth grader.10 See Brown, 27
F.3d at 1379.
10 Plaintiffs argue that applying the Lemon test from the perspective of an adult is also appropriate, because the Framework

85a
Defendants argue that a reasonable sixth grader
would consider the primary effect of the Standards
and Framework to be teaching the history of ancient
civilizations, not the disapproval of Hinduism. MTD
at 11. Defendants rely on Noonan, which held that
even “accepting plaintiff’s position that the texts, in
part, inaccurately and negatively depict Hinduism
while simultaneously providing a more favorable depiction of Abrahamic religions,” the textbooks, when
viewed as a whole and as part of the overall curriculum, did not convey a message of government endorsement or disapproval of a particular religion. Id.
(citing Noonan, 600 F.Supp.2d at 1119).
But Noonan adjudicated a motion for summary
judgment, which involves a different standard than a
motion to dismiss. See Usher, 828 F.2d at 561 (on a
motion to dismiss, a court “must presume all factual
allegations of the complaint to be true and draw all
reasonable inferences in favor of the nonmoving party”). Here, the Court must determine whether the allegations support a reasonable inference that a reasonable and informed sixth grader would consider the
content of the Standards and the Framework to have
a primary effect of conveying a message of disapproval of Hinduism. At this stage of the litigation, the
Court concludes that they do.
In support of their claim that Hindu students experience pain and humiliation at the curriculum’s portrayal of Hinduism, Plaintiffs quote a letter from a
Hindu student that was submitted during the public
comment portion of the Framework adoption process,
describing her experience learning about Hinduism in
the sixth grade. Compl. ¶ 85. The student’s class enis directed at adults. The Court disagrees. See Brown, 27 F.3d at
1379.

86a
gaged in a simulation where the students were divided into “castes,” with higher caste students allowed to
cheat off of students in a lower caste. Id. “By the end
of the period, a majority of the class was complaining
of how unfair this is, and how cruel this Hindu system was.” Id. The student says, “my class was not
helped to become aware and accepting of my heritage
nor was I allowed to remain secure in my belief.” Id.
She wrote: “I do not want my friends to look down
upon me and my culture and religion[.]” Id.
The primary message that sixth grade student received was that her teacher and classmates considered Hinduism “cruel,” “primitive and unjust,” and
that Hinduism had not been treated with “fairness
and dignity.” Id. The student formed this impression
based in large part on the Framework’s content,
which emphasized that the caste system was a part of
Hinduism. See Framework at 42. The Framework
specifically instructs teachers to “make clear to students that [the caste system] was a social and cultural structure as well as a religious belief.” Compl. ¶ 81
(emphasis added). The original draft of the Framework said that the caste system was a “social and cultural structure rather than a religious belief,” but the
SBE changed it, allegedly at the suggestion of the
SAFG. Id. ¶¶ 80–81. Plaintiffs allege that even if this
revised statement is historically accurate, the heightened focus on the caste system in connection with
Hinduism is “derogatory and inconsistent with . . .
the treatment of other religions in the Framework.”
Id. ¶ 82. In the same vein, the student asks in her
letter, “[w]e know that social hierarchies have existed
in all societies, so why is Hinduism singled out with
such [a] negative portrayal?” Id. ¶ 85.
The sixth grader who wrote this letter observed
that the curriculum portrayed Hinduism, but not

87a
other religions, in a negative light—to her, the curriculum primarily communicated disapproval of Hinduism. See Brown, 27 F.3d at 1379. In light of the
Supreme Court’s admonition that courts should be
“particularly vigilant in monitoring compliance with
the Establishment Clause in elementary and secondary schools,” Edwards, 482 U.S. at 583–84, 107 S.Ct.
2573, the Court will infer at this point that this sixth
grader is reasonable, or that a reasonable sixth grader would perceive the same message, see Usher, 828
F.2d at 561 (in evaluating a motion to dismiss, a
court must draw all reasonable inferences in favor of
the plaintiff). Plaintiffs have therefore stated a claim
that the Standards and Framework violate the second prong of the Lemon test. Accordingly, the Court
DENIES the motion to dismiss the Establishment
Clause claim.
D. Equal Protection claim
Finally, Plaintiffs allege discrimination against the
Hindu religion in both (1) the content of the Standards and Framework, and (2) the Framework adoption process. Defendants argue that Plaintiffs have
failed to state a claim as to both.11

11 Defendants also argue that Plaintiffs cannot establish an
Equal Protection violation because the complaint did not plead
facts establishing the State’s “municipal liability” for the alleged
discrimination against Hinduism by employees of the CDE and
members of the SBE. MTD at 16. This argument fails because
the State Defendants are not a municipality, and Plaintiffs do
not allege municipal liability. Monell concluded that “Congress
did intend municipalities and other local government units to be
included among those persons to whom § 1983 applies.” Monell
v. Dep’t of Soc. Servs., 436 U.S. 658, 690, 98 S.Ct. 2018, 56
L.Ed.2d 611 (1978). Its holding was “limited to local government
units which are not considered part of the State for Eleventh
Amendment purposes.” Id. at 690 n.54, 98 S.Ct. 2018.

88a
1. Discrimination in the Content of the Standards
and Framework
Defendants correctly argue that Ninth Circuit law
forecloses an Equal Protection claim based on the
content of the public school curriculum. See MTD at
12–13.
The Ninth Circuit has held that the Equal Protection Clause is not a means for challenging curriculum
content decisions in public schools. See Monteiro v.
Tempe Union High School Dist., 158 F.3d 1022, 1028
(9th Cir. 1998). In Monteiro, plaintiff appealed dismissal of an Equal Protection claim alleging that a
school district intentionally discriminated against African–American students by requiring students to
read two books that repeatedly referred to African–
Americans using a profane, racially derogatory term.
Id. at 1024. The Ninth Circuit “consider[ed] whether
the assignment of material deemed to have educational value by school authorities may in itself serve
as the basis for an injunction,” and held that the
Equal Protection Clause will not support a challenge
to the curriculum “even when the works are accused
of being racist in whole or in part.” Id. at 1028. The
court explained that its holding does not preclude
In addition, suits against state officials in their official capacities are treated as suits against the State. Hafer v. Melo, 502
U.S. 21, 25, 112 S.Ct. 358, 116 L.Ed.2d 301 (1991). A plaintiff
seeking injunctive relief against the State is not required to allege a named official’s personal involvement in the acts or omissions constituting the alleged constitutional violation. Hartmann v. Cal. Dep’t of Corr. & Rehab., 707 F.3d 1114, 1126–27
(9th Cir. 2013). Rather, a plaintiff need only identify the law or
policy challenged as a constitutional violation and name the official within the entity who can appropriately respond to injunctive relief. See Hafer, 502 U.S. at 25, 112 S.Ct. 358. The Framework and Standards are the challenged official state policy here.
See generally Compl.

89a
challenges to curriculum content decisions under the
Religion Clauses of the First Amendment. Monteiro,
158 F.3d at 1028 n.6. Similarly, in Noonan, the previous lawsuit CAPEEM brought against the SBE, the
court held that CAPEEM’s Equal Protection claims
failed “because the State has the discretion to determine the content of its curriculum, and the Equal
Protection Clause does not provide a basis to challenge such curriculum decisions.” Noonan, 600
F.Supp.2d at 1111 (citing Monteiro, 158 F.3d 1022).
Plaintiffs argue that Monteiro is distinguishable
because it considered the teaching of books written by
third party authors, rather than state-drafted curriculum. Opp’n at 13. Not so. Monteiro addressed not
only literary works written by non-state actors, but
“the assignment of material deemed to have educational value by school authorities[.]” See 158 F.3d at
1028. In Monteiro, as here, school authorities made a
decision to include the material in the required curriculum. See id.
Plaintiffs’ Equal Protection claim based on the curriculum’s content is “squarely foreclose[d]” by Monteiro. See Noonan, 600 F.Supp.2d at 1111. No
amendment to the complaint can cure this deficiency.
Accordingly, the Court GRANTS the motion to dismiss with prejudice the portion of the Equal Protection claim as to the content of the Standards and
Framework.
2. Discrimination in the Framework Adoption
Process
A closer question is the Equal Protection claim as to
process. The Equal Protection Clause of the Fourteenth Amendment provides that no State shall “deny
to any person within its jurisdiction the equal protection of the laws.” U.S. Const. Amend. 14. This is “es-

90a
sentially a direction that all similarly situated persons should be treated alike.” City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 439, 105 S.Ct.
3249, 87 L.Ed.2d 313 (1985). In an Equal Protection
claim, the plaintiffs must (a) show that they were
treated unfavorably compared to a similarly situated
group, and (b) show that the difference in treatment
was based on an “impermissible motive.” Freeman v.
City of Santa Ana, 68 F.3d 1180, 1187 (9th Cir. 1995).
Both parties have advanced arguments regarding the
impermissible motive prong, but because Plaintiffs
have not adequately pled the disparate treatment
prong, the Court does not reach the question of motive.
Plaintiffs allege that all other religions in the
Framework are treated more favorably than Hinduism, and specifically that the Abrahamic religions receive special positive treatment and endorsement.
Compl. ¶¶ 75–83, 86–90. Plaintiffs claim that the
Framework endorses Abrahamic religions by teaching biblical events as fact. Id. ¶ 104. As discussed in
regards to the Establishment Clause claim above,
this claim is implausible in light of the actual text of
the Framework, which does not teach that any miraculous biblical stories are fact. See, e.g., Framework
at 74 (describing the historical origins of Christianity,
including the life of Jesus, without endorsing the belief that Jesus was actually a divine figure). Thus,
Plaintiffs’ discrimination claim as to the Framework
adoption process must survive dismissal based on
Hinduism being treated unfavorably, rather than
Abrahamic religions being endorsed as true.
Plaintiffs plead first that the SBE disfavored Hinduism in the Framework adoption process by consulting the anti-Hindu SAFG in secret, and giving “exalted treatment” to its anti-Hindu report. Compl. ¶¶ 61,

91a
73. These claims strain credulity. The SBE has the
ability to, but is not required to, retain experts in the
Framework drafting process. Id. ¶ 72. It did not retain any experts here, and announced this decision
weeks before receiving any reports from the SAFG.
See id. ¶¶ 48, 72. The SAFG submitted a report and
suggested edits as public comments, not as an expert
report. See id. ¶ 48.
Plaintiffs allege that “[u]pon information and belief,
the [SBE] went to elaborate lengths to hide its consultations with secret experts only with respect to
Hinduism and did not do so for its depiction of other
religions.” Id. ¶ 61. This conclusory statement is supported only by allegations that one of the Defendants
“evaded questions” from Hindu parents about the expert hiring process. Id. ¶ 65. But Plaintiffs do not
plausibly plead that the SAFG was ever given special
expert status or deference. They merely note that a
member of the Framework drafting commission suggested “defer[ring] to the scholars,” including SAFG
and its suggested edits. Id. ¶ 74. The SBE actually
rejected four of the six examples that Plaintiffs provided of SAFG’s proposed anti-Hindu edits. Compare
Compl. ¶¶ 55, 57–60, with Framework at 40–43, 142.
The Court finds it implausible that the SAFG report
was given secret expert and “exalted treatment” as
Plaintiffs have pled.
Next, Plaintiffs plead disparate treatment in the
SBE’s handling of suggested edits received from various religious groups. Plaintiffs cite the States’ Criteria for Evaluating Instructional Materials, which directs the SBE not to include language in the curriculum that is derogatory of a religion, or “examples
from sacred texts or other religious literature that are
derogatory, accusatory, or instill prejudice against
other religions.” Id. ¶¶ 78, 91. Plaintiffs allege that

92a
the SBE followed these guidelines and honored requests to remove derogatory language for other religions, but not for Hinduism. Id. ¶¶ 75–83. For example, a Jewish group requested that the state remove
reference to the Good Samaritan parable in the
Framework’s section on Christianity, because the story “describes Jews as biased and heartless.” Id. ¶ 78.
The SBE made the requested change. Id. ¶ 79.
Plaintiffs allege that in contrast, the SBE denied
similar requests from Hindu groups. Id. ¶¶ 75–83.
The strongest example that Plaintiffs cite is that the
SBE denied their request to remove language describing the caste system as a Hindu religious belief.12 Id.
Plaintiffs acknowledge that this challenged statement might be historically accurate, id. ¶ 82, but contend that it puts a disproportionate emphasis on the
caste system. Plaintiffs allege that a large portion of
what students learn about Hinduism “relates to an
unfair societal structure that the Framework has told
them is part of that religion.” Id. ¶ 100. “For no other
religion besides Hinduism does the Framework describe supposed negative beliefs of followers based
upon the [SBE’s] interpretation of religious text.” Id.
¶ 101.
Plaintiffs attempt to frame the SBE’s handling of
suggested edits from different religious groups as a
matter of process, but really what Plaintiffs object to
is the curriculum decisions that allowed allegedly derogatory content into the final Framework. Such a
claim is barred by Monteiro, “because the State has
the discretion to determine the content of its curricu12 Plaintiffs’ other examples of rejected edits are less persuasive. The SBE rejected Plaintiffs’ proposal to insert flattering
mention of Hinduism in the sections regarding other religions.
Compl. ¶ 90. This does not demonstrate that the Framework is
derogatory towards Hinduism.

93a
lum, and the Equal Protection Clause does not provide a basis to challenge such curriculum decisions.”
Noonan, 600 F.Supp.2d at 1111 (citing Monteiro, 158
F.3d at 1032). In Noonan, CAPEEM’s Equal Protection claims as to the SBE’s textbook adoption process
survived a motion to dismiss and summary judgment,
600 F.Supp.2d at 1113, but the process claims in
Noonan were based on “certain procedural irregularities that only affected Hindu groups,” such as formatting requirements and arbitrary deadlines for the
public comments imposed only on Hindu groups, id.
at 1111. In addition, the SBE “fully vetted Dr. Bajpai,
[an expert] who supported [CAPEEM’s] edits, but
they did not do the same for the experts they hired
who opposed the edits, and defendants imposed special requirements only on Dr. Bajpai and not on the
experts opposing the edits.” Id. at 1112. In the present case, there are no such allegations, just content
challenges masquerading as process challenges.
The problem here is not process. The SBE invited
public comments on the draft Framework, but it is
not obligated to accept every suggested edit—nor
could it, when faced with conflicting input. The public
school system could not function if every rejected public comment on the content of curriculum carried potential liability. The Ninth Circuit recognized this
when it held that the Equal Protection Clause is not a
means for challenging the curriculum content decisions in public schools. See Monteiro, 158 F.3d at
1028–30. Every piece of content in the California curriculum is the result of some process. It would render
the holding of Monteiro meaningless for the Court to
recognize an Equal Protection process claim every
time a Plaintiff pointed to objectionable content. The
Court does not conclude that the content editing decisions made by the SBE in this case were either fair or

94a
unfair—only that, as the Ninth Circuit held in Monteiro, these issues are properly resolved under the Religion Clauses of the First Amendment. See id. at
1027 n.6. Indeed, Plaintiffs’ Establishment Clause
claim is based on the same allegedly derogatory
Framework language instructing that the caste system was a Hindu religious belief. See Compl. ¶¶ 80–
82, 85, 144. The Court is allowing that claim to proceed.
But Plaintiffs have not pled and cannot adequately
plead that the Defendants treated Hinduism unfavorably as compared to other religions in the Framework adoption process. Their allegations that the
SBE gave “exalted” and secret expert treatment to
the SAFG are conclusory and implausible. See Iqbal,
556 U.S. at 678, 129 S.Ct. 1937. Their allegations regarding editing decisions go to the Framework’s content, rather than the adoption process itself, and thus
fail under Monteiro. See 158 F.3d at 1032. Accordingly, Defendants’ motion to dismiss Plaintiffs’ Equal
Protection claim is GRANTED with prejudice.
IV. CONCLUSION
For the foregoing reasons, the Court hereby:
1. GRANTS WITH PREJUDICE the motion to dismiss the substantive Due Process claim;
2. GRANTS WITH PREJUDICE the motion to dismiss the Free Exercise claim;
3. DENIES the motion to dismiss the Establishment Clause claim; and
4. GRANTS WITH PREJUDICE the motion to dismiss the Equal Protection claim.
IT IS SO ORDERED.

95a
APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
————
No. 19-15607
————
CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS; ARVIND RAGHAVAN,
individually and as parent and next friend of M.R.
and N.R.; VISHNUKUMAR THUMATI, individually and
as parent and next friend of P.T. and N.T.; SHAILESH
SHILWANT, individually and as parent and next friend
of P.S. and P.S.S.,
Plaintiffs-Appellants,
v.
TOM TORLAKSON, in his official capacity as State
Superintendent of Public Instruction and Director of
Education for the California Department of
Education; TOM ADAMS, in his official capacity as
Deputy Superintendent of the Instruction and
Learning Support Branch of the California
Department of Education; STEPHANIE GREGSON, in
her official capacity as Director of the Curriculum
Frameworks and Instructional Resources Division of
the California Department of Education; MICHAEL
KIRST; ILENE STRAUS; SUE BURR; BRUCE HOLADAY;
FELIZA I. ORTIZ-LICON; PATRICIA ANN RUCKER;
NICOLASA SANDOVAL; TING L. SUN; TRISH BOYD
WILLIAMS, each in their official capacity as a member
of the California State Board of Education; MYONG
LEIGH, in his official capacity as Interim
Superintendent of the San Francisco Unified School
District; SHAMANN WALTON; HYDRA MENDOZAMCDONNELL; STEVON COOK; MATT HANEY; EMILY M.
MURASE; RACHEL NORTON; MARK SANCHEZ, each in

96a
their official capacity as a member of the San
Francisco Unified School District; RICK SCHMITT, in
his official capacity as Superintendent of the San
Ramon Valley Unified School District; MARK JEWETT;
KEN MINTZ; RACHEL HURD; DENISE JENNISON; GREG
MARVEL, each in their official capacity as a member of
the San Ramon Valley Unified School District Board
of Education; WENDY GUDALEWICZ, in her official
capacity as Superintendent of the Cupertino Union
School District; ANJALI KAUSAR; LIANG CHAO;
KRISTEN LYN; SOMA MCCANDLESS; PHYLLIS VOGEL,
each in their official capacity as a member of the
Cupertino Union School District Board of Education;
CHERYL JORDAN, in her official capacity as
Superintendent of the Milpitas Unified School
District; DANIEL BOBAY; DANNY LAU; CHRIS
NORWOOD; HON LIEN; ROBERT JUNG, each in their
official capacity as a member of the Milpitas Unified
School District Board of Education,
Defendants-Appellees,
REGENTS OF THE UNIVERSITY OF CALIFORNIA,
Intervenor.
————
D.C. No. 3:17-cv-00635-CRB
Northern District of California,
San Francisco
————
Filed September 23, 2020
————
Before: THOMAS, Chief Judge, and
SCHROEDER and BRESS, Circuit Judges.
————
ORDER
————

97a
The panel has voted to deny Appellants’ Petition for
Panel Rehearing.
Appellants’ Petition for Panel Rehearing, Docket
No. 55, is DENIED.

98a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
————
Case No. 17-cv-00635-CRB
————
CALIFORNIA PARENTS FOR THE EQUALIZATION OF
EDUCATIONAL MATERIALS, et al.,
Plaintiffs,
v.
TOM TORLAKSON, et al.,
Defendants.
————
ORDER DENYING MOTION TO AMEND,
GRANTING IN PART MOTION TO DEFER,
SETTING BRIEFING SCHEDULE ON SUMMARY
JUDGMENT; AND VACATING TRIAL DATES
————
The Court hereby DENIES Plaintiff’s Motion to
Amend Complaint. See Mot. to Amend (dkt. 172). The
Court rejects Plaintiffs’ arguments about the new factual allegations and rejects Plaintiffs’ interpretation
of Trinity Lutheran Church of Columbia, Inc. v. Comer, 137 S. Ct. 2012 (2017) and Masterpiece Cakeshop,
Ltd. v. Colorado Civil Rights Comm’n, 138 S. Ct. 1719
(2018). See id. at 4–7. Accordingly, amendment would
be futile. See Leadsinger, Inc. v. BMG Music Pub.,
512 F.3d 522, 532 (9th Cir. 2008).
The Court further GRANTS IN PART Plaintiffs’
Motion to Defer Consideration of Motion for Summary Judgment (dkt. 174). In light of Plaintiffs’ assertions in connection with Federal Rule of Civil Procedure 56(d), Mot. to Defer at 4–5, and the ongoing

99a
discovery disputes between the parties, the Court
ORDERS as follows: Defendants’ summary judgment
motion on the sole remaining claim in this case is due
sixty (60) days from this Order;1 Plaintiffs’ opposition
to that motion is due two weeks thereafter; Defendants’ reply is due one week thereafter. The Court will
then schedule a motion hearing if necessary.
The Court VACATES all trial-related dates in this
case.
IT IS SO ORDERED.
Dated: October 26, 2018
/s/ Charles R. Breyer
CHARLES R. BREYER
United States District Judge

1 Defendants may either (1) withdraw the previously filed motion (dkt. 163) and file a new motion, or (2) notify the Court of
their wish to proceed with the previously filed motion.

100a
APPENDIX F
CHALLENGED CONTENT STANDARDS
————
History–Social Science Content Standards
for California Public Schools
Kindergarten Through Grade Twelve
————
Adopted by the
California State Board of Education
October, 1998
————
California Department of Education
Created May 18, 2000
————
* * *
Grade Six
World History and Geography:
Ancient Civilizations
Students in grade six expand their understanding
of history by studying the people and events that
ushered in the dawn of the major Western and nonWestern ancient civilizations. Geography is of special
significance in the development of the human story.
Continued emphasis is placed on the everyday lives,
problems, and accomplishments of people, their role
in developing social, economic, and political structures, as well as in establishing and spreading ideas
that helped transform the world forever. Students
develop higher levels of critical thinking by considering why civilizations developed where and when they
did, why they became dominant, and why they declined. Students analyze the interactions among the
various cultures, emphasizing their enduring contri-

101a
butions and the link, despite time, between the contemporary and ancient worlds.
6.1 Students describe what is known through
archaeological studies of the early physical
and cultural development of humankind
from the Paleolithic era to the agricultural
revolution.
1. Describe the hunter-gatherer societies, including the development of tools and the use
of fire.
2. Identify the locations of human communities
that populated the major regions of the world
and describe how humans adapted to a variety of environments.
3. Discuss the climatic changes and human
modifications of the physical environment
that gave rise to the domestication of plants
and animals and new sources of clothing and
shelter.
6.2 Students analyze the geographic, political,
economic, religious, and social structures
of the early civilizations of Mesopotamia,
Egypt, and Kush.
1. Locate and describe the major river systems
and discuss the physical settings that supported permanent settlement and early civilizations.
2. Trace the development of agricultural techniques that permitted the production of economic surplus and the emergence of cities as
centers of culture and power.

102a
3. Understand the relationship between religion and the social and political order in
Mesopotamia and Egypt.
4. Know the significance of Hammurabi’s Code.
5. Discuss the main features of Egyptian art
and architecture.
6. Describe the role of Egyptian trade in the
eastern Mediterranean and Nile valley.
7. Understand the significance of Queen Hatshepsut and Ramses the Great.
8. Identify the location of the Kush civilization
and describe its political, commercial, and
cultural relations with Egypt.
9. Trace the evolution of language and its written forms.
6.3 Students analyze the geographic, political,
economic, religious, and social structures
of the Ancient Hebrews.
1. Describe the origins and significance of Judaism as the first monotheistic religion based
on the concept of one God who sets down
moral laws for humanity.
2. Identify the sources of the ethical teachings
and central beliefs of Judaism (the Hebrew
Bible, the Commentaries): belief in God, observance of law, practice of the concepts of
righteousness and justice, and importance of
study; and describe how the ideas of the Hebrew traditions are reflected in the moral
and ethical traditions of Western civilization.
3. Explain the significance of Abraham, Moses,
Naomi, Ruth, David, and Yohanan ben Zaccai in the development of the Jewish religion.

103a
4. Discuss the locations of the settlements and
movements of Hebrew peoples, including the
Exodus and their movement to and from
Egypt, and outline the significance of the Exodus to the Jewish and other people.
5. Discuss how Judaism survived and developed despite the continuing dispersion of
much of the Jewish population from Jerusalem and the rest of Israel after the destruction of the second Temple in A.D. 70.
6.4 Students analyze the geographic, political,
economic, religious, and social structures
of the early civilizations of Ancient Greece.
1. Discuss the connections between geography
and the development of city-states in the region of the Aegean Sea, including patterns of
trade and commerce among Greek city-states
and within the wider Mediterranean region.
2. Trace the transition from tyranny and oligarchy to early democratic forms of government and back to dictatorship in ancient
Greece, including the significance of the invention of the idea of citizenship (e.g., from
Pericles’ Funeral Oration).
3. State the key differences between Athenian,
or direct, democracy and representative democracy.
4. Explain the significance of Greek mythology
to the everyday life of people in the region
and how Greek literature continues to permeate our literature and language today,
drawing from Greek mythology and epics,
such as Homer’s Iliad and Odyssey, and from
Aesop’s Fables.

104a
5. Outline the founding, expansion, and political organization of the Persian Empire.
6. Compare and contrast life in Athens and
Sparta, with emphasis on their roles in the
Persian and Peloponnesian Wars.
7. Trace the rise of Alexander the Great and the
spread of Greek culture eastward and into
Egypt.
8. Describe the enduring contributions of important Greek figures in the arts and sciences (e.g., Hypatia, Socrates, Plato, Aristotle,
Euclid, Thucydides).
6.5 Students analyze the geographic, political,
economic, religious, and social structures
of the early civilizations of India.
1. Locate and describe the major river system
and discuss the physical setting that supported the rise of this civilization.
2. Discuss the significance of the Aryan invasions.
3. Explain the major beliefs and practices of
Brahmanism in India and how they evolved
into early Hinduism.
4. Outline the social structure of the caste system.
5. Know the life and moral teachings of Buddha
and how Buddhism spread in India, Ceylon,
and Central Asia.
6. Describe the growth of the Maurya empire
and the political and moral achievements of
the emperor Asoka.

105a
7. Discuss important aesthetic and intellectual
traditions (e.g., Sanskrit literature, including
the Bhagavad Gita; medicine; metallurgy;
and mathematics, including Hindu-Arabic
numerals and the zero).
6.6 Students analyze the geographic, political,
economic, religious, and social structures
of the early civilizations of China.
1. Locate and describe the origins of Chinese
civilization in the Huang-He Valley during
the Shang Dynasty.
2. Explain the geographic features of China
that made governance and the spread of ideas and goods difficult and served to isolate
the country from the rest of the world.
3. Know about the life of Confucius and the
fundamental teachings of Confucianism and
Taoism.
4. Identify the political and cultural problems
prevalent in the time of Confucius and how
he sought to solve them.
5. List the policies and achievements of the emperor Shi Huangdi in unifying northern China under the Qin Dynasty.
6. Detail the political contributions of the Han
Dynasty to the development of the imperial
bureaucratic state and the expansion of the
empire.
7. Cite the significance of the trans-Eurasian
“silk roads” in the period of the Han Dynasty
and Roman Empire and their locations.
8. Describe the diffusion of Buddhism northward to China during the Han Dynasty.

106a
6.7 Students analyze the geographic, political,
economic, religious, and social structures
during the development of Rome.
1. Identify the location and describe the rise of
the Roman Republic, including the importance of such mythical and historical figures as Aeneas, Romulus and Remus, Cincinnatus, Julius Caesar, and Cicero.
2. Describe the government of the Roman Republic and its significance (e.g., written constitution and tripartite government, checks
and balances, civic duty).
3. Identify the location of and the political and
geographic reasons for the growth of Roman
territories and expansion of the empire, including how the empire fostered economic
growth through the use of currency and trade
routes.
4. Discuss the influence of Julius Caesar and
Augustus in Rome’s transition from republic
to empire.
5. Trace the migration of Jews around the Mediterranean region and the effects of their conflict with the Romans, including the Romans’
restrictions on their right to live in Jerusalem.
6. Note the origins of Christianity in the Jewish
Messianic prophecies, the life and teachings
of Jesus of Nazareth as described in the New
Testament, and the contribution of St. Paul
the Apostle to the definition and spread of
Christian beliefs (e.g., belief in the Trinity,
resurrection, salvation).

107a
7. Describe the circumstances that led to the
spread of Christianity in Europe and other
Roman territories.
8. Discuss the legacies of Roman art and architecture, technology and science, literature,
language, and law.
Grade Seven
World History and Geography:
Medieval and Early Modern Times
Students in grade seven study the social, cultural,
and technological changes that occurred in Europe,
Africa, and Asia in the years A.D. 500–1789. After
reviewing the ancient world and the ways in which
archaeologists and historians uncover the past, students study the history and geography of great civilizations that were developing concurrently throughout
the world during medieval and early modern times.
They examine the growing economic interaction
among civilizations as well as the exchange of ideas,
beliefs, technologies, and commodities. They learn
about the resulting growth of Enlightenment philosophy and the new examination of the concepts of reason and authority, the natural rights of human beings and the divine right of kings, experimentalism in
science, and the dogma of belief. Finally, students assess the political forces let loose by the Enlightenment, particularly the rise of democratic ideas, and
they learn about the continuing influence of these
ideas in the world today.
7.1 Students analyze the causes and effects of
the vast expansion and ultimate disintegration of the Roman Empire.
1. Study the early strengths and lasting contributions of Rome (e.g., significance of Roman

108a
citizenship; rights under Roman law; Roman
art, architecture, engineering, and philosophy; preservation and transmission of Christianity) and its ultimate internal weaknesses
(e.g., rise of autonomous military powers
within the empire, undermining of citizenship by the growth of corruption and slavery,
lack of education, and distribution of news).
2. Discuss the geographic borders of the empire
at its height and the factors that threatened
its territorial cohesion.
3. Describe the establishment by Constantine of
the new capital in Constantinople and the
development of the Byzantine Empire, with
an emphasis on the consequences of the development of two distinct European civilizations, Eastern Orthodox and Roman Catholic, and their two distinct views on churchstate relations.
7.2 Students analyze the geographic, political,
economic, religious, and social structures
of the civilizations of Islam in the Middle
Ages.
1. Identify the physical features and describe
the climate of the Arabian peninsula, its relationship to surrounding bodies of land and
water, and nomadic and sedentary ways of
life.
2. Trace the origins of Islam and the life and
teachings of Muhammad, including Islamic
teachings on the connection with Judaism
and Christianity.
3. Explain the significance of the Qur’an and
the Sunnah as the primary sources of Islamic

109a
beliefs, practice, and law, and their influence
in Muslims’ daily life.
4. Discuss the expansion of Muslim rule
through military conquests and treaties, emphasizing the cultural blending within Muslim civilization and the spread and acceptance of Islam and the Arabic language.
5. Describe the growth of cities and the establishment of trade routes among Asia, Africa,
and Europe, the products and inventions
that traveled along these routes (e.g., spices,
textiles, paper, steel, new crops), and the role
of merchants in Arab society.
6. Understand the intellectual exchanges
among Muslim scholars of Eurasia and Africa and the contributions Muslim scholars
made to later civilizations in the areas of science, geography, mathematics, philosophy,
medicine, art, and literature.
7.3 Students analyze the geographic, political,
economic, religious, and social structures
of the civilizations of China in the Middle
Ages.
1. Describe the reunification of China under the
Tang Dynasty and reasons for the spread of
Buddhism in Tang China, Korea, and Japan.
2. Describe agricultural, technological, and
commercial developments during the Tang
and Sung periods.
3. Analyze the influences of Confucianism and
changes in Confucian thought during the
Sung and Mongol periods.

110a
4. Understand the importance of both overland
trade and maritime expeditions between
China and other civilizations in the Mongol
Ascendancy and Ming Dynasty.
5. Trace the historic influence of such discoveries as tea, the manufacture of paper, woodblock printing, the compass, and gunpowder.
6. Describe the development of the imperial
state and the scholar-official class.
7.4 Students analyze the geographic, political,
economic, religious, and social structures
of the sub-Saharan civilizations of Ghana
and Mali in Medieval Africa.
1. Study the Niger River and the relationship of
vegetation zones of forest, savannah, and desert to trade in gold, salt, food, and slaves;
and the growth of the Ghana and Mali empires.
2. Analyze the importance of family, labor specialization, and regional commerce in the development of states and cities in West Africa.
3. Describe the role of the trans-Saharan caravan trade in the changing religious and cultural characteristics of West Africa and the
influence of Islamic beliefs, ethics, and law.
4. Trace the growth of the Arabic language in
government, trade, and Islamic scholarship
in West Africa.
5. Describe the importance of written and oral
traditions in the transmission of African history and culture.

111a
7.5 Students analyze the geographic, political,
economic, religious, and social structures
of the civilizations of Medieval Japan.
1. Describe the significance of Japan’s proximity to China and Korea and the intellectual,
linguistic, religious, and philosophical influence of those countries on Japan.
2. Discuss the reign of Prince Shotoku of Japan
and the characteristics of Japanese society
and family life during his reign.
3. Describe the values, social customs, and traditions prescribed by the lord-vassal system
consisting of shogun, daimyo, and samurai
and the lasting influence of the warrior code
in the twentieth century.
4. Trace the development of distinctive forms of
Japanese Buddhism.
5. Study the ninth and tenth centuries’ golden
age of literature, art, and drama and its lasting effects on culture today, including Murasaki Shikibu’s Tale of Genji.
6. Analyze the rise of a military society in the
late twelfth century and the role of the samurai in that society.
7.6 Students analyze the geographic, political,
economic, religious, and social structures
of the civilizations of Medieval Europe.
1. Study the geography of the Europe and the
Eurasian land mass, including its location,
topography, waterways, vegetation, and climate and their relationship to ways of life in
Medieval Europe.

112a
2. Describe the spread of Christianity north of
the Alps and the roles played by the early
church and by monasteries in its diffusion after the fall of the western half of the Roman
Empire.
3. Understand the development of feudalism,
its role in the medieval European economy,
the way in which it was influenced by physical geography (the role of the manor and the
growth of towns), and how feudal relationships provided the foundation of political order.
4. Demonstrate an understanding of the conflict
and cooperation between the Papacy and European monarchs (e.g., Charlemagne, Gregory VII, Emperor Henry IV).
5. Know the significance of developments in
medieval English legal and constitutional
practices and their importance in the rise of
modern democratic thought and representative institutions (e.g., Magna Carta, parliament, development of habeas corpus, an independent judiciary in England).
6. Discuss the causes and course of the religious
Crusades and their effects on the Christian,
Muslim, and Jewish populations in Europe,
with emphasis on the increasing contact by
Europeans with cultures of the Eastern Mediterranean world.
7. Map the spread of the bubonic plague from
Central Asia to China, the Middle East, and
Europe and describe its impact on global
population.

113a
8. Understand the importance of the Catholic
church as a political, intellectual, and aesthetic institution (e.g., founding of universities, political and spiritual roles of the clergy,
creation of monastic and mendicant religious
orders, preservation of the Latin language
and religious texts, St. Thomas Aquinas’s
synthesis of classical philosophy with Christian theology, and the concept of “natural
law”).
9. Know the history of the decline of Muslim
rule in the Iberian Peninsula that culminated in the Reconquista and the rise of Spanish
and Portuguese kingdoms.
7.7 Students compare and contrast the geographic, political, economic, religious, and
social structures of the Meso-American and
Andean civilizations.
1. Study the locations, landforms, and climates
of Mexico, Central America, and South
America and their effects on Mayan, Aztec,
and Incan economies, trade, and development of urban societies.
2. Study the roles of people in each society, including class structures, family life, warfare,
religious beliefs and practices, and slavery.
3. Explain how and where each empire arose
and how the Aztec and Incan empires were
defeated by the Spanish.
4. Describe the artistic and oral traditions and
architecture in the three civilizations.
5. Describe the Meso-American achievements
in astronomy and mathematics, including the
development of the calendar and the Meso-

114a
American knowledge of seasonal changes to
the civilizations’ agricultural systems.
7.8 Students analyze the origins, accomplishments, and geographic diffusion of the Renaissance.
1. Describe the way in which the revival of classical learning and the arts fostered a new interest in humanism (i.e., a balance between
intellect and religious faith).
2. Explain the importance of Florence in the
early stages of the Renaissance and the
growth of independent trading cities (e.g.,
Venice), with emphasis on the cities’ importance in the spread of Renaissance ideas.
3. Understand the effects of the reopening of
the ancient “Silk Road” between Europe and
China, including Marco Polo’s travels and
the location of his routes.
4. Describe the growth and effects of new ways
of disseminating information (e.g., the ability
to manufacture paper, translation of the Bible into the vernacular, printing).
5. Detail advances made in literature, the arts,
science, mathematics, cartography, engineering, and the understanding of human anatomy and astronomy (e.g., by Dante Alighieri,
Leonardo da Vinci, Michelangelo di Buonarroti Simoni, Johann Gutenberg, William
Shakespeare).

115a
7.9 Students analyze the historical developments of the Reformation.
1. List the causes for the internal turmoil in
and weakening of the Catholic church (e.g.,
tax policies, selling of indulgences).
2. Describe the theological, political, and economic ideas of the major figures during the
Reformation (e.g., Desiderius Erasmus, Martin Luther, John Calvin, William Tyndale).
3. Explain Protestants’ new practices of church
self-government and the influence of those
practices on the development of democratic
practices and ideas of federalism.
4. Identify and locate the European regions
that remained Catholic and those that became Protestant and explain how the division affected the distribution of religions in
the New World.
5. Analyze how the Counter-Reformation revitalized the Catholic church and the forces
that fostered the movement (e.g., St. Ignatius
of Loyola and the Jesuits, the Council of
Trent).
6. Understand the institution and impact of
missionaries on Christianity and the diffusion of Christianity from Europe to other
parts of the world in the medieval and early
modern periods; locate missions on a world
map.
7. Describe the Golden Age of cooperation between Jews and Muslims in medieval Spain
that promoted creativity in art, literature,
and science, including how that cooperation
was terminated by the religious persecution

116a
of individuals and groups (e.g., the Spanish
Inquisition and the expulsion of Jews and
Muslims from Spain in 1492).
7.10 Students analyze the historical developments of the Scientific Revolution and its
lasting effect on religious, political, and
cultural institutions.
1. Discuss the roots of the Scientific Revolution
(e.g., Greek rationalism; Jewish, Christian,
and Muslim science; Renaissance humanism;
new knowledge from global exploration).
2. Understand the significance of the new scientific theories (e.g., those of Copernicus,
Galileo, Kepler, Newton) and the significance
of new inventions (e.g., the telescope, microscope, thermometer, barometer).
3. Understand the scientific method advanced
by Bacon and Descartes, the influence of new
scientific rationalism on the growth of democratic ideas, and the coexistence of science
with traditional religious beliefs.
7.11 Students analyze political and economic
change in the sixteenth, seventeenth, and
eighteenth centuries (the Age of Exploration, the Enlightenment, and the Age of
Reason).
1. Know the great voyages of discovery, the locations of the routes, and the influence of
cartography in the development of a new European worldview.
2. Discuss the exchanges of plants, animals,
technology, culture, and ideas among Europe, Africa, Asia, and the Americas in the
fifteenth and sixteenth centuries and the ma-

117a
jor economic and social effects on each continent.
3. Examine the origins of modern capitalism;
the influence of mercantilism and cottage industry; the elements and importance of a
market economy in seventeenth-century Europe; the changing international trading and
marketing patterns, including their locations
on a world map; and the influence of explorers and map makers.
4. Explain how the main ideas of the Enlightenment can be traced back to such movements as the Renaissance, the Reformation,
and the Scientific Revolution and to the
Greeks, Romans, and Christianity.
5. Describe how democratic thought and institutions were influenced by Enlightenment
thinkers (e.g., John Locke, Charles-Louis
Montesquieu, American founders).
6. Discuss how the principles in the Magna
Carta were embodied in such documents as
the English Bill of Rights and the American
Declaration of Independence.
* * *

118a
APPENDIX G
CHALLENGED FRAMEWORK
————
HISTORY SOCIAL SCIENCE FRAMEWORK
FOR CALIFORNIA PUBLIC SCHOOLS
Kindergarten Through Grade Twelve
————
Adopted by the California State Board of Education
July 2016
————
Published by the California Department of Education
Sacramento, 2017
————
* * *
Grade Six
CHAPTER 10
World History and Geography:
Ancient Civilizations
* * *
The Early Civilizations of India
■ How did the environment influence the emergence and decline of the Indus civilization?
■ How did religions of Ancient India, including, but
not limited to early Hinduism, support individuals,
rulers, and societies?
■ How did the religion of Buddhism support individuals, rulers, and societies?
■ During the Indus civilization, the Vedic period,
and the Maurya Empire, how did the connections between the Indian subcontinent and other regions of
Afroeurasia increase?

119a
In this unit, students learn about societies of ancient
India. The region of Ancient India is today sometimes
called “South Asia” and encompasses the modern
states of Afghanistan, Bangladesh, Bhutan, Maldives,
Nepal, India, Pakistan, and Sri Lanka. Students begin
with the environment: How did the environment
influence the emergence and decline of the Indus civilization? The earliest civilization, known as
Harappan civilization after one of its cities, was centered in the Indus River valley, though its cultural
style spread widely from present-day Afghanistan to
the upper Ganga plain (Ganges River). The Indus
River and its tributaries flow from the Himalaya
mountains southward across the plain now called the
Punjab, fan out into a delta, and pour into the Arabian Sea. The river valley was much larger than either
Mesopotamia or Egypt, and its soil was very rich.
In lessons two and four of the California EEI curriculum unit 6.5.1, “The Rivers and Ancient Empires
of China and India,” students locate and describe the
physical features of the Indus and Ganges river systems in the Indian subcontinent. Investigating regional seasonal cycles, especially the summer monsoons, students provide examples of how these cycles
benefited the permanent settlement of early Indian
civilization, helping them to recognize that humans
depend on, benefit from, and can alter the cycles that
occur in the natural systems where they live.
Arising in the third millennium BCE, the Harappan civilization attained its zenith between about
2600 and 1900 BCE. It was discovered by archaeologists in the 1920s. Digs have revealed that many Harappan cities, including Harappa and Mohenjo-daro,
were well planned, with streets laid out in grids and
well-engineered sewers. Artifacts include pottery,
seals, statues, jewelry, tools, and toys. The seals con-

120a
tain writing that has not yet been deciphered. Some
of the statues and figurines, as well as images on the
seals, show features that are all present in modern
Hinduism, such as a male figure that resembles the
Hindu God Shiva in a meditating posture, as well as
small clay figures in the posture of the traditional
Hindu greeting namaste.
Evidence reveals active commerce between the cities of the Harappan civilization as well as foreign
trade with Mesopotamia by sea. A flourishing urban
civilization developed in India from as early as 3300
BCE along the Indus River. Archaeologists believe
this civilization had its greatest stage of expansion
from 2600 to 1700 BCE. The economic basis of the
civilization was surplus agriculture, though the cities
of Mohenjo-daro and Harappa carried on extensive
trade. The Harappan civilization steadily declined
after 1900 BCE, perhaps because of ecological factors
such as seismic events, deforestation, salt buildup in
the soil, and persistent drought, including the drying
up of the Sarasvati River around 2000 BCE.
Ancient India experienced a Vedic period (ca. 1500–
500 BCE), named for the Vedas which were composed
in Sanskrit. While Sanskrit texts, both religious and
secular, continued to be produced in subsequent centuries, texts in Old Tamil also began to appear
around 300 BCE, and Tamil literary production flourished during the Sangam period in South India in following centuries. Sanskrit and Tamil texts passed on
for generations through a complex oral tradition. In
that period, according to many scholars, people
speaking Indic languages, which are part of the larger Indo-European family of languages, entered South
Asia, probably by way of Iran. Gradually, Indic languages, including Sanskrit, spread across northern
India. They included the ancestors of such modern

121a
languages as Hindi, Urdu, and Bengali. The early Indic speakers were most likely animal herders. They
may have arrived in India in scattered bands, later
intermarrying with populations perhaps ancestral to
those who speak Dravidian languages, such as Tamil
and Telugu, in southern India and Sri Lanka today.
In the same era, nomads who spoke Indo-Iranian languages moved into Persia. Indic, Iranian, and most
European languages are related. Another point of view
suggests that the language was indigenous to India
and spread northward, but it is a minority position.
Later in the Vedic period, new royal and commercial towns arose along the Ganges (aka Ganga), India’s second great river system. In this era, Vedic culture emerged as a belief system that combined the
beliefs of Indic speakers with those of older populations. Teachers focus students on the question: How
did religions of Ancient India, including, but
not limited to early Hinduism, support individuals, rulers, and societies? Brahmins, that is,
priestly families, assumed authority over complex devotional rituals, but many important sages, such as
Valmiki and Vyasa, were not brahmins.
Ancient Hindu sages (brahmins and others) expounded the idea of the oneness of all living things
and of Brahman as the divine principle of being. The
Hindu tradition is thus monistic, the idea of reality
being a unitary whole. Brahman, an all-pervading
divine supreme reality, may be manifested in many
ways, including incarnation in the form of Deities.
These Deities are worshiped as distinct personal
Gods or Goddesses, such as Vishnu who preserves the
world, Shiva who transforms it, and Sarasvati, the
Goddess of learning. Students may read a few hymns
from the “Bhumi Sukta” excerpted from the Vedas to
discover the nature of Vedic hymns. Vedic teachings

122a
gradually built up a rich body of spiritual and moral
teachings that form a key foundation of Hinduism as
it is practiced today.
These teachings were transmitted orally at first,
and then later in written texts, the Upanishads and,
later, the Bhagavad Gita. Performance of duties and
ceremonies, along with devotion and meditation, became dimensions of the supreme quest to achieve
oneness with God. That fulfillment, however, demands obedience to the moral law of the universe,
called dharma, which also refers to performance of
social duties. Fulfilling dharma is one of the four
primary goals of human life, along with kama (love),
artha (wealth) and moksha (oneness with God). Success or failure at existing in harmony with dharma
determines how many times an individual might be
subject to reincarnation, or repeated death and rebirth at either lower or higher positions of moral and
ritual purity. Progress toward spiritual realization is
governed by karma, the principle of cause-and-effect
by which human actions, good and bad, affect this
and future lives. Many of the central practices of
Hinduism today, including home and temple worship,
yoga and meditation, rites of passage (samskaras),
festivals, pilgrimage, respect for saints and gurus,
and, above all, a profound acceptance of religious diversity, developed over time.
As in all early civilizations, Indian society witnessed the development of a system of social classes.
Ancient Indian society formed into groups, jatis, that
emphasized birth as the defining criteria. Jatis initially shared the same occupation and married only
within the group. This system, often termed caste,
provided social stability and gave an identity to each
community. The Vedas also describe four main social
categories, known as varnas: Brahmins (priests),

123a
Kshatriyas (kings and warriors), Vaishyas (merchants, artisans, and farmers), and Sudras (peasants
and laborers). A person belonged to a particular varna not just by professional excellence and good conduct, but primarily by birth. In addition, by 500 CE
or earlier, there existed certain communities outside
the jati system, the Dalits (sometimes known as “Untouchables”), who did the most unclean work, such as
cremation, disposal of dead animals, and sanitation.
Relations between classes came to be expressed in
terms of ritual purity or impurity, higher classes being purer than lower ones. This class system became
distinctive over the centuries for being especially
complex and formal, involving numerous customs and
prohibitions on eating together and intermarrying
that kept social and occupational groups distinct from
one another in daily life. Over the centuries, the Indian social structure became more rigid, though perhaps not more inflexible than the class divisions in
other ancient civilizations.
When Europeans began to visit India in modern
times, they used the word “caste” to characterize the
social system because of the sharp separation they
perceived between groups who did not intermarry
and thus did not mix with each other. Caste, however, is a term that social scientists use to describe unbending social structure.
Today many Hindus, in India and in the United
States, do not identify themselves as belonging to a
caste. Teachers should make clear to students that
this was a social and cultural structure as well as a
religious belief. As in Mesopotamia and Egypt,
priests, rulers, and other elites used religion to justify
the social hierarchy. Although ancient India was a
patriarchy, women had a right to their personal
wealth (especially jewelry, gold, and silver) but little

124a
property rights when compared with men, akin to the
other ancient kingdoms and societies. They participated in religious ceremonies and festival celebrations, though not as equals. Hinduism is the only major religion in which God is worshipped in female as
well as male form.
One text that Hindus rely on for solutions to moral
dilemmas is the Ramayana, the story of Rama, an incarnation or avatar of Vishnu, who goes through
many struggles and adventures as he is exiled from
his father’s kingdom and has to fight a demonic enemy, Ravana. Rama, his wife Sita, and some other
characters are challenged by critical moral decisions
in this epic work. The teacher may select the scene in
which Rama accepts his exile, or the crisis over the
broken promise of Sugriva, the monkey king, and
then ask students What is the moral dilemma
here? What is the character’s dharma? In this
way, students can deepen their understanding of
Hinduism as they are immersed in one of ancient India’s most important literary and religious texts.
* * *
Grade Seven
CHAPTER 11
World History and Geography:
Medieval and Early Modern Times
* * *
Rome and Christendom, 300 CE–1200
* * *
At this point, the teacher shifts to the development
of Christianity. In the early years of the Roman Empire, Christianity began as a sect of Judaism in Judea, a province of the Roman Empire. The teacher fo-

125a
cuses on the following questions: How did the religion of Christianity develop and change over
time? How did Christianity spread through the
empire and to other cultures? Through selections
from Biblical literature, students will learn about
those teachings of Jesus that advocate compassion,
justice, and love for others. He taught that God loved
all his creation, regardless of status or circumstance,
and that humans should reflect that love in relations
with one another. Jesus shared the Jewish belief in
one God, but he added the promise of eternal salvation to those who believe in him as their savior. The
Roman authorities in Judea executed Jesus. But under the leadership of his early followers, notably
Paul, a Jewish scholar from Anatolia, Christians took
advantage of Roman roads and sea-lanes to travel
widely, preaching to both Jews and others.
As missionaries spread Christianity beyond the
Jewish community, they abandoned some Jewish customs, such as dietary laws, to make the new religion
more accessible to non-Jews. Christian communities
multiplied around the Mediterranean, through Persia, and into Central Asia. The church communities
welcomed new converts without consideration of their
political or social standing, including the urban poor
and women. Although ancient Christianity was a patriarchy and all the apostles were men, several women were prominent, especially Mary, mother of Jesus.
Until modern times, Christian women had few property rights and were subordinate to men. Upper-class
and influential Romans who converted appear to
have been predominantly women, and some of them
assumed leadership positions. Many Jews did not
convert to Christianity, and Judaism and Christianity split into two separate religions.
* * *

